<html>
<title> - LAW ENFORCEMENT TREATIES</title>
<body><pre>[Senate Hearing 107-721]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-721
 
                        LAW ENFORCEMENT TREATIES
=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 19, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate







                       U. S. GOVERNMENT PRINTING OFFICE
82-266                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

  







                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., responses received to additional 
  questions submitted for the record.............................    15
Boxer, Hon. Barbara, responses received to additional questions 
  submitted for the record.......................................    25
Cooley, Steve, Los Angeles County District Attorney, letter to 
  Senator Barbara Boxer, regarding Mexican extradition matters...    29
Helms, Hon. Jesse, responses received to additional questions 
  submitted for the record.......................................    21
Johnson, Thomas A., letter to Senator Barbara Boxer, regarding 
  Swedish MLAT...................................................    32
Swartz, Bruce C., Deputy Assistant Attorney General, Criminal 
  Division, Department of Justice, Washington, DC................     5
    Prepared statement...........................................     7
Witten, Samuel M., Deputy Legal Advisor, Department of State, 
  Washington, DC.................................................     2
    Prepared statement...........................................     3

                                 (iii)

  


                        LAW ENFORCEMENT TREATIES

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:10 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barbara 
Boxer, presiding.
    Present: Senator Boxer.
    Senator Boxer. The committee will come to order. Today, the 
Senate Foreign Relations Committee meets to review nine law 
enforcement treaties. These bilateral agreements include three 
extradition treaties between the United States and the nations 
of Canada, Lithuania, and Peru, five mutual U.S. assistance 
treaties between the United States and the nations of Belize, 
India, Liechtenstein, Ireland, and Sweden, and one treaty with 
Honduras on the return of stolen, robbed, or embezzled vehicles 
and aircraft.
    The committee would like to welcome our witnesses joining 
us today, Mr. Samuel Witten, Deputy Legal Adviser at the 
Department of State, and Mr. Bruce Swartz, Deputy Assistant 
Attorney General at the Department of Justices' Criminal 
Division. Welcome.
    In 2000, Mr. Witten and Mr. Swartz testified before the 
committee when it considered 20 separate law enforcement 
treaties. Both witnesses before us today are experts in 
international law enforcement, and understand the necessity and 
benefits of cooperation between all nations, especially at this 
critical time in our history. The United States has entered 
into more than 100 bilateral treaties, extradition treaties. 
These treaties are important agreements that ensure that those 
who commit crimes in the United States cannot flee to other 
nations to escape justice and punishment.
    I want to take a moment to clarify the need for a second 
extradition treaty with Canada. An important reason is to 
incorporate a temporary surrender mechanism into the current 
agreement between our two nations. As stated in the President's 
letter of submittal, this has become a standard provision in 
recent bilateral treaties, and allows for an extraditable 
person to stand trial while they are still serving sentences in 
another State.
    The other two extradition treaties with Peru and Lithuania 
replace treaties signed in 1899 and 1924 respectively. I think 
the time has come to do this. In each of the new treaties 
before us today, extraditable offenses are determined by the 
method of dual criminality. Dual criminality covers offenses 
that are punishable by imprisonment of at least 1 year by both 
the requesting State and the requested State. This is an 
improvement over the list treaties of the past, which simply 
listed covered crimes.
    A second type of treaty before us today, mutual legal 
assistance treaties [MLATs], are designed to enhance 
cooperation between countries in the area of law enforcement 
through the sharing of evidence, information, and other 
assistance. The United States has entered into these treaties 
with more than 50 countries. The committee has heard concerns 
about the administration's proposal to enter into a mutual 
legal assistance treaty with Sweden because of that nation's 
unwillingness to fully comply with the Hague Treaty on 
International Abduction.
    I understand these serious concerns. In fact, in 1998, I 
intervened on behalf of a California father who had a son 
abducted to Sweden. I hope that our witnesses will be able to 
address some of these concerns during the hearing.
    Finally, the committee will also be considering a treaty 
with Honduras on the return of stolen vehicles, which addresses 
this growing international problem.
    So I want to thank you for being here, and I would ask Mr. 
Witten, would you like to start?

STATEMENT OF SAMUEL M. WITTEN, DEPUTY LEGAL ADVISER, DEPARTMENT 
                    OF STATE, WASHINGTON, DC

    Mr. Witten. Thank you, Senator.
    Madam Chairman, with your permission, I will submit the 
full statement for the record and just summarize several key 
points. The Department of State greatly appreciates the 
opportunity to move toward ratification of these important 
treaties. I will focus on the extradition treaties and protocol 
and the stolen vehicle treaty, and Mr. Swartz will focus on the 
mutual legal assistance treaties.
    The growth in transnational criminal activity, especially 
terrorism, violent crime, drug trafficking, arms trafficking, 
trafficking in persons, the laundering of proceeds of criminal 
activity, including terrorist financing, organized crime, and 
corruption generally has confirmed the need for increased 
international law enforcement cooperation. The treaties before 
the Senate Foreign Relations Committee are essential tools in 
that effort.
    I will turn first to the extradition treaties. The two new 
treaties and one protocol pending before the committee will 
update our existing treaty relationships with two law 
enforcement partners and create a new treaty relationship with 
one partner, Canada, by way of updating the underlying treaty 
and protocol between the United States and Canada. This is part 
of the administration's ongoing program to review and revise 
older extradition treaty relationships, many of which are 
seriously outdated and do not include many modern crimes or 
modern procedures.
    The new extradition treaty with Peru will replace an 
outdated treaty signed in 1899. The new treaty represents a 
major step forward in law enforcement cooperation between our 
two countries. It obligates each country to extradite its own 
nationals, which is a high priority for U.S. law enforcement 
authorities. For many years, Peruvian law prohibited the 
extradition of Peruvian nationals.
    Second, the new treaty will replace the old list of 
extraditable offenses with the modern dual criminality 
approach. Extraditable offenses are defined as those punishable 
under the laws in both countries by a sentence of more than one 
year or a more severe penalty. This modern approach allows 
extradition for a broader range of offenses, and encompasses 
new crimes such as cyber crime as they develop in the two 
countries, without having to amend the treaty.
    The new treaty with Lithuania is the first such treaty 
concluded with one of the Baltic States since the dissolution 
of the Soviet Union a decade ago. The new extradition treaty 
and an MLAT with Lithuania that entered into force in 1999 
together constitute a fully modernized bilateral law 
enforcement relationship between the United States and 
Lithuania that will be particularly valuable in combatting 
organized crime.
    Like the Peru treaty, the treaty with Lithuania contains an 
obligation on each party to extradite nationals to face justice 
in each other's courts, thereby overcoming the preexisting bar 
in Lithuania's criminal code. Lithuania is to be commended for 
becoming the most recent European country to recognize that the 
time has come to remove this obstacle in extradition relations 
with the United States. The protocol to the extradition treaty 
with Canada, as you mentioned, Senator, allows for the 
temporary surrender of persons to stand trial in one State 
while still serving a sentence in the other State. My prepared 
testimony will give more details, and I will not repeat it 
here.
    And finally, Madam Chairman, the stolen vehicle treaty with 
Honduras is substantially the same as the five similar stolen 
vehicle treaties this committee approved 2 years ago in October 
2000. We had hoped to include the Honduras treaty in that group 
of treaties, but its negotiation had not been completed in 
time, and so it is a stand-alone treaty substantially identical 
to those that have previously been approved by the committee.
    The U.S. insurance industry strongly supports these 
treaties, since U.S. insurers are typically subrogated to the 
ownership interests of U.S. citizens or businesses whose 
vehicles have been stolen and taken overseas. Insurance 
industry representatives have informed us the stolen vehicle 
treaties provide discernible improvements in the cooperation of 
foreign authorities. The treaty should significantly improve 
and facilitate the return of U.S. vehicles from Honduras.
    Thank you, Madam Chairman. I will be pleased to answer any 
questions.
    [The prepared statement of Mr. Witten follows:]

     Prepared Statement of Samuel M. Witten, Deputy Legal Adviser, 
                          Department of State

    Madam Chairman and Members of the Committee:
    I am pleased to appear before you today to testify in support of 
nine new treaties for international law enforcement cooperation, 
including a protocol to the U.S.-Canada Extradition Treaty. The 
treaties, which have been transmitted to the Senate for advice and 
consent to ratification, fall into three categories:

  <bullet> extradition treaties with Lithuania and Peru and a Second 
        Protocol amending the U.S.-Canada Extradition Treaty;

  <bullet> mutual legal assistance treaties--or ``MLATs''--with Belize, 
        India, Ireland, Liechtenstein and Sweden;

  <bullet> a treaty for the return of stolen vehicles and aircraft with 
        Honduras.

    The Department of State greatly appreciates this opportunity to 
move toward ratification of these important assistance treaties first, 
followed by the stolen vehicle and aircraft treaty.
    The growth in transborder criminal activity, especially terrorism, 
violent crime, drug trafficking, arms trafficking, trafficking in 
persons, the laundering of proceeds of criminal activity, including 
terrorist financing, organized crime and corruption, generally has 
confirmed the need for increased international law enforcement 
cooperation. Extradition treaties and MLATs are essential tools in that 
effort.
    The negotiation of new extradition and mutual legal assistance 
treaties is an important part of the Administration's many efforts to 
address international crime, and in particular the heightened incidents 
of international terrorism. One important measure to better address 
this threat is to enhance the ability of U.S. law enforcement officials 
to cooperate effectively with their overseas counterparts in 
investigating and prosecuting international criminal cases. Replacing 
outdated extradition treaties with modern ones and negotiating such 
treaties with new partners is necessary to create a seamless web of 
mutual obligations to facilitate the prompt location, arrest and 
extradition of international fugitives. Similarly, mutual legal 
assistance treaties are needed to provide witness testimony, records 
and other evidence in a form admissible in criminal prosecutions. The 
instruments before you today will be important tools in achieving this 
goal.
                          extradition treaties
    I will first address the pending extradition treaties. As you know, 
under U.S. law, fugitives can only be extradited from the United States 
pursuant to authorization granted by statute or treaty. The two new 
treaties and one protocol pending before the Committee will update our 
existing treaty relationships with two law enforcement partners and 
create a new treaty relationship with one partner. This is part of the 
Administration's ongoing program to review and revise older extradition 
treaty relationships, many of which are seriously outdated and do not 
include many modern crimes or modern procedures.
    The new extradition treaty with Peru, signed at Lima July 26, 2001, 
will replace an outdated treaty signed in 1899. The new treaty 
represents a major step forward in law enforcement cooperation between 
the two countries. Certain features of the treaty are worth noting. 
First, the new treaty obligates each country to extradite its own 
nationals, a high priority for U.S. law enforcement authorities. For 
many years, Peruvian law prohibited the extradition of Peruvian 
nationals. Second, the new treaty replaces the old ``list'' of 
extraditable offenses with the modern ``dual criminality'' approach. 
Extraditable offenses are defined as those punishable under the laws in 
both countries by a sentence of more than one year or a more severe 
penalty. This modern approach allows extradition for a broader range of 
offenses and encompasses new ones, e.g., cyber crime, as they develop 
in the two countries, without having to amend the treaty.
    The new extradition treaty with Lithuania, signed in October, 2001, 
is the first such treaty concluded with one of the Baltic states since 
the dissolution of the Soviet Union a decade ago. The new extradition 
treaty, and an MLAT with Lithuania that entered into force in 1999, 
together constitute a fully-modernized bilateral law enforcement 
relationship that will be particularly valuable in combating organized 
crime.
    Like the Peru treaty, the new treaty with Lithuania contains an 
obligation to extradite nationals to face justice in each other's 
courts, thereby overcoming the preexisting bar in Lithuania's criminal 
code. Lithuania is to be commended for becoming the most recent 
European country to recognize that the time has come to remove this 
historic obstacle in extradition relations with the United States.
    The second protocol to the extradition treaty with Canada, signed 
at Ottawa January 12, 2001, allows for the temporary surrender of 
persons to stand trial in one State while still serving a sentence in 
the other State. This mechanism can be an important law enforcement 
tool in cases where an individual has committed serious crimes in both 
countries. Temporary surrender allows for the prompt trial of an 
accused person while witnesses and evidence are still available. Such a 
mechanism has become a standard feature in recent U.S. bilateral 
extradition treaties, and will be a useful addition to the 1971 treaty 
with Canada and the 1988 protocol, which addresses other issues. The 
second protocol will also streamline authentication requirements to 
take advantage of changes in Canadian law regarding the admissibility 
of extradition documents.
                                 mlats
    Also before you today are five mutual legal assistance treaties. 
The MLATs with Ireland and Sweden, both signed in 2001, are standard in 
content. They reflect the importance of a modern, treaty-based 
framework for mutual legal assistance with important West European 
partners. With these treaties the United States will have MLATs in 
place with 11 of the 15 member states of the European Union. The MLAT 
with India, which is also standard in content, will improve our ability 
to cooperate in law enforcement matters with that country, and will 
complement the new extradition treaty we brought into force with India 
in 1999.
    The MLAT with Liechtenstein, signed this summer, represents the 
first ever concluded by that country. Conclusion of this treaty is a 
significant step by Liechtenstein, a bank secrecy jurisdiction, to 
improve its cooperation with foreign criminal tax investigations and 
prosecutions. Through this treaty, Liechtenstein has for the first time 
agreed to provide a foreign country with assistance in pursuing tax 
fraud offenses. An exchange of diplomatic notes forming a part of the 
treaty makes clear that assistance also would be made available to U.S. 
authorities for conduct that would be considered tax evasion under U.S. 
law.
    The MLAT with Belize, signed in 2000, together with the new 
extradition treaty also signed that year, represents the culmination of 
our efforts to modernize law enforcement treaty relations with this 
Central American country. Belize, like Liechtenstein, is an off-shore 
financial jurisdiction. The treaty includes an exchange of diplomatic 
notes reflecting the Parties' understanding that assistance includes 
criminal tax matters. This treaty closely resembles the seven MLATs 
concluded in the late 1990's with the English-speaking countries of the 
Eastern Caribbean, with which Belize shares a British legal heritage.
                         stolen vehicle treaty
    The stolen vehicle treaty with Honduras is substantially the same 
as the five similar stolen vehicle treaties approved by this Committee 
two years ago in October 2000. Its negotiation had not yet been 
completed when those treaties--with Belize, Costa Rica, the Dominican 
Republic, Guatemala and Panama--were approved, so it could not be 
considered at that time.
    Like those treaties, the Honduras treaty establishes procedures 
that can be used for the recovery and return of vehicles that are 
documented in the territory of one party, stolen within its territory 
or from one of its nationals, and found in the territory of the other 
party. Like the parallel treaties already in force with Mexico, Costa 
Rica, Guatemala, and Panama, the Honduran treaty also provides for the 
return of stolen aircraft.
    The U.S. insurance industry strongly supports these treaties, since 
U.S. insurers are typically subrogated to the ownership interests of 
U.S. citizens or businesses whose vehicles have been stolen and taken 
overseas. In fact, insurance industry representatives have informed us 
that these stolen vehicle treaties provide discernible improvements in 
the cooperation of the foreign authorities. The treaty should 
significantly improve and facilitate the return of U.S. vehicles from 
Honduras.
    Thank you, Madam Chairman. I will be pleased to answer any 
questions you or other members of the Committee may have.

    Senator Boxer. Thank you, Mr. Witten.
    Mr. Swartz.

    STATEMENT OF BRUCE C. SWARTZ, DEPUTY ASSISTANT ATTORNEY 
GENERAL, CRIMINAL DIVISION, DEPARTMENT OF JUSTICE, WASHINGTON, 
                               DC

    Mr. Swartz. Thank you, Madam Chairman. I am pleased to 
appear today before the committee to present the views of the 
Department of State with regard to the nine law enforcement 
treaties that have been referred to the committee.
    The extradition and mutual legal assistance agreements that 
are before the committee today represent the next stage in the 
ongoing creation of our country's international law enforcement 
network with regard to agreements with our foreign 
counterparts. The importance of that network has been once 
again demonstrated in the months since September 11, 2001. Our 
extradition and mutual legal assistance agreements have played 
a vital role in the war on terrorism. They have played an 
equally important role in our efforts to fight international 
organize crime, to deal with complex financial fraud, and to 
address trafficking in persons and in narcotics.
    With the committee's permission, I will submit my full 
statement for the record and simply address some of the 
features of mutual legal assistance treaties that are before 
the committee today.
    Senator Boxer. Without objection, so ordered.
    Mr. Swartz. Thank you. The committee is fully aware from 
its past experience of the benefits that mutual legal 
assistance treaties provide over other forms of formal legal 
assistance. Those benefits include a more efficient approach, 
certainly more efficient than letters rogatory, since they do 
not require court orders. They allow us to process these 
requests not through diplomatic channels but from central 
authority to central authority.
    They also create a binding obligation to provide assistance 
if the terms of the treaty are met. They allow assistance in an 
investigatory stage, which therefore advances our interest in 
being able to move quickly with regard to criminal cases. They 
allow us to pierce bank secrecy. They establish a framework for 
addressing a number of issues, including admissibility of 
evidence, confrontation of witnesses, foreign depositions, and 
confidentiality. Finally, they establish a framework for 
freezing and seizing and forfeiting criminally derived assets.
    I would like to briefly look at some of the features of the 
treaties that are before us today with regard to mutual legal 
assistance. The Belize treaty creates a now fully modern law 
enforcement relationship with Belize, following the entering 
into force of our extradition treaty with Belize, that will 
allow us to combat narcotics trafficking. It will also allow us 
to engage in freezing and seizure of assets with regard to 
narcotics trafficking and other offenses.
    Since Belize is also a significant off-shore financial 
jurisdiction, the mutual legal assistance treaty is important 
with regard to the ability to deal with financial crimes, 
including tax matters.
    India. The MLAT with India will allow us to create a modern 
law enforcement relationship thanks to entry into force of our 
extradition treaty. The India treaty, as itself makes clear in 
its terms, allows us to deal with terrorism, narcotics, 
economic crime, and organized crime offenses in addition to 
other offenses.
    The Ireland mutual legal assistance treaty will allow us to 
enhance our network of treaties with the EU countries. It will 
allow us to deal with money laundering, international 
terrorism, and organized crime.
    Liechtenstein represents an important breakthrough with 
regard to our ability to pierce bank secrecy. Liechtenstein is, 
of course, a major off-shore financial center. This is the 
first mutual legal assistance treaty that Liechtenstein has 
entered into, and as a result of this Liechtenstein will 
provide assistance to the United States with regard to tax law 
offenses, including tax evasion.
    Sweden, which, Madam Chairman, you have referred to, is 
another important EU State. We recognize, of course, the issues 
that you have suggested with regard to parental abduction, and 
would be glad to address those at greater length, but we would 
like to point out that this treaty will allow us assistance in 
a number of matters, including matters involving terrorism, 
fraud, tax, computer crime, and money laundering.
    We appreciate the committee's support over the years to 
strengthen and enlarge this framework of international 
agreements. This is an important next step in going forward 
with these treaties, and we join with our colleagues in the 
Department of State in urging the prompt and favorable 
consideration of these.
    Thank you again.
    [The prepared statement of Mr. Swartz follows:]

   Prepared Statement of Bruce C. Swartz, Deputy Assistant Attorney 
           General, Criminal Division, Department of Justice

    Madam Chairman and members of the Committee, I am pleased to appear 
before you today to present the views of the Department of Justice on 
nine law enforcement treaties, including one protocol, that have been 
referred to the Committee. Each of these instruments will advance the 
law enforcement interests of the United States. They are of particular 
importance as we face an increasing need for cooperation and assistance 
from the international community in the investigation of crimes 
relating to terrorism and other serious violent activity, trafficking 
in persons and drugs, and large-scale financial offenses.
    Two of the treaties--with Lithuania and Peru--replace old, outdated 
extradition treaties. The second protocol to the extradition treaty 
between the United States and Canada amends the terms of the existing 
treaty. Five treaties are bilateral mutual legal assistance treaties 
(``MLATs'')--with Belize, India, Ireland, Liechtenstein and Sweden--
each of which is the first of its kind to be negotiated between the 
United States and the treaty partner. The final instrument is a treaty 
for the return of stolen vehicles and aircraft with Honduras.
    The decision to proceed with the negotiation of law enforcement 
treaties such as these is made by the Departments of State and Justice, 
and reflects our international law enforcement priorities. The 
Department of Justice participated in the negotiation of these 
extradition and mutual legal assistance treaties, and we join the 
Department of State today in urging the Committee to report favorably 
to the Senate and recommend its advice and consent to ratification of 
all of the treaties.
    The Departments of Justice and State have prepared and submitted to 
the Committee technical analyses of seven of the treaties. In my 
testimony today, I will concentrate on why these treaties are important 
for United States law enforcement agencies engaged in investigating and 
prosecuting serious offenses.
                 the extradition treaties and protocol
    Modernizing our extradition treaties and, where appropriate, 
establishing new extradition relationships, are among the top 
priorities of the Justice Department's international law enforcement 
efforts.
    The two extradition treaties and one protocol being considered by 
the Committee replace or update the following, existing treaties: the 
1924 treaty and the 1934 supplement that currently govern our 
extradition relations with Lithuania; the U.S.-Peru extradition treaty 
of 1899; and the 1971 extradition treaty between the U.S. and Canada, 
as amended by an exchange of notes of June 28 and July 9, 1974, and a 
first protocol in 1988. Each of the new instruments contains features 
we regularly seek in order to establish a modern, effective extradition 
relationship.
    Most notably, the new extradition treaties with Lithuania and Peru 
establish that extradition shall not be refused on the basis of the 
nationality of the person sought. This provision overcomes legal 
barriers to the extradition of Lithuanian and Peruvian citizens in the 
respective, existing treaties, and provides an affirmative obligation 
for the extradition of nationals. Non-extradition of nationals remains 
among the most serious obstacles to bringing fugitives to justice, and 
so whenever possible, we include in our treaties an explicit obligation 
to extradite nationals. Most countries with a common law tradition, 
including the United States, extradite their citizens, provided there 
is a treaty in force and evidence to support the criminal charges. Many 
countries with a civil law tradition, however, historically have 
refused to extradite their nationals. In this regard, the treaty with 
Peru continues the modern trend in Latin American countries of 
abandoning the bar on extradition of nationals and denying safe haven 
to fugitives. Peru omitted this bar when it updated its extradition law 
in 1987, but neither the new law nor the 1899 extradition treaty 
provides any affirmative basis for the extradition of Peruvian 
nationals. That basis is now contained in the new extradition treaty. 
Similarly, the new United States-Lithuania treaty enables Lithuania to 
extradite its citizens.
    Both extradition treaties contain features that are standard to our 
modern extradition practice. Each is a ``dual criminality'' treaty, 
carrying the obligation to extradite for all offenses that are 
punishable in both treaty partners' countries by imprisonment for a 
period of more than one year, or by a more severe penalty. This 
approach replaces the outmoded ``list'' regime of our current treaties 
with Lithuania and Peru, which limits extradition to those crimes 
enumerated in the treaties. Dual criminality treaties carry the 
advantage of reaching the broadest range of felony offense behavior, 
without requiring the repeated updating of the treaty as new forms of 
criminality emerge. This is particularly important as United States 
authorities investigate and prosecute crimes related to terrorism, 
trafficking in persons, money laundering, computer crime and other 
recent trends.
    The treaties with Lithuania and Peru incorporate a variety of 
procedural improvements in extradition practice. Both clarify the 
procedures for ``provisional arrest,'' the process by which a fugitive 
can be detained immediately in exigent circumstances, for a specified 
period of time, pending the preparation and submission of formal 
documents in support of extradition.
    Both treaties contain ``temporary surrender'' provisions, which 
allow a person found extraditable, but who is already in custody in the 
requested State on another charge, to be temporarily transferred to the 
requesting State for purposes of trial. This provision is designed to 
overcome the problem of delaying extradition while a fugitive is 
serving a sentence abroad, during which time the case underlying the 
extradition request may become stale--or completely unviable--because 
of the unavailability of witnesses or other evidentiary difficulties.
    The treaties permit an individual to waive extradition or otherwise 
agree to immediate surrender to the requesting State, thereby 
expediting the extradition process in uncontested cases. Both treaties 
contemplate extradition for extraterritorial offenses, which is 
particularly important to the United States in terrorism and drug 
trafficking cases. The two treaties are explicitly retroactive, so 
their terms also will apply to crimes committed before the treaties 
entered into force.
    Both treaties give the requested State the standard discretion to 
refuse extradition in cases in which the offense for which extradition 
is sought is punishable by death in the requesting State, but is not 
punishable by such penalty in the requested State, unless the 
requesting State provides an assurance that the person sought will not 
be executed.
    The treaties with Peru and Lithuania contain standard language 
concerning the political offense exception to extradition. Both 
treaties establish that a murder or other violent crime against a Head 
of State of the requesting or requested State, or a member of that 
person's family, shall not constitute a political offense. Likewise, an 
offense for which both States are obligated pursuant to a multilateral 
international agreement to extradite the person sought or submit the 
case to their competent authorities for decision as to prosecution is 
not a political offense. The treaty with Lithuania includes additional 
crimes of violence that shall not be considered political offenses and 
is similar to several other modern treaties.
    The second protocol amending the United States-Canada extradition 
treaty is very limited in scope. It authorizes the temporary 
extradition to the requesting State of individuals charged with crimes 
there who are serving sentences in the requested State, and contains 
modifications to the authentication requirements for U.S. documents 
submitted in support of extradition from Canada. It serves as a 
supplement to, and is incorporated as a part of, the existing 
extradition treaty, which we already have modernized in other respects, 
through the first protocol. The second protocol takes advantage of 
extradition legislation that Canada enacted in 1999, including a 
provision on temporary surrender. Absent the authorization provided by 
the second protocol, surrender through the extradition process of 
persons already convicted and sentenced in the country from which 
extradition is sought must generally be deferred until the completion 
of their sentence, by which time the evidence in the other country may 
no longer be compelling or available. Pursuant to the second protocol, 
such individuals, upon the granting of requests for their extradition, 
can be surrendered temporarily to the requesting State for purposes of 
immediate prosecution and then returned to the requested State for the 
completion of their original sentences. Given the high volume of 
extradition work between the United States and Canada, we anticipate 
that the ability to grant temporary surrender will facilitate the 
efficient administration of justice on both sides of the border.
    The second protocol also makes several technical changes that will 
streamline the extradition treaty's authentication provisions, which 
govern the admissibility of extradition documents in the courts of the 
requested State. These changes also came about as a result of Canada's 
amendments to its extradition legislation, and accrue to the benefit of 
the United States. The protocol eliminates the need for Department of 
State and diplomatic or consular authentication for documents submitted 
in support of U.S. extradition requests. Instead, the protocol allows 
for a judicial authority or prosecutor in the United States to provide 
the necessary certification when the person is sought for prosecution. 
When an individual already has been convicted, documents supporting the 
U.S. extradition request may be certified by a judicial, correctional 
or prosecuting authority. Although the protocol retains the existing 
authentication provisions for extradition documents from Canada, it 
provides the alternative that documents may be certified or 
authenticated in any other manner accepted by the law of the requested 
State. This alternative enables both countries to take advantage of any 
future changes to their laws.
                  the mutual legal assistance treaties
    The five MLATs before this Committee will expand the United States' 
complement of law enforcement mechanisms designed to strengthen our 
ability to obtain evidence and other forms of assistance from overseas 
in support of our criminal investigations and prosecutions. I realize 
the Committee has become acquainted with the significant benefits MLATs 
provide to the international law enforcement community since the first 
such treaty came into force in 1977. Accordingly, I will briefly review 
only some of those benefits in this statement.
    Our practical experience with MLATs over the years has demonstrated 
that they are far more efficient than other formal means of 
international legal assistance, specifically including letters 
rogatory, as MLAT requests do not require a court order and they are 
not routed through diplomatic channels. MLATs establish a direct 
channel of communication between Central Authorities--usually contained 
within the respective treaty partners' Departments of Justice--and they 
confer a binding legal obligation to provide assistance if the 
requirements of the treaty are met. MLATs are broad in scope, and 
provide for assistance at the investigatory stage, usually without the 
requirement of dual criminality. These treaties pierce bank secrecy and 
provide a mechanism for addressing legal and policy issues such as 
confidentiality, admissibility requirements for evidence, allocation of 
costs, confrontation of witnesses at foreign depositions and custodial 
transfer of witnesses. Significantly, MLATs provide a framework for 
cooperating in the tracing, seizure and forfeiture of criminally-
derived assets.
    Despite these and other benefits, we realize that MLATs in 
themselves are not the solution to all aspects of law enforcement 
cooperation. They are similar to extradition treaties in that their 
success depends on our ability to implement them effectively, combining 
comprehensive and updated legal provisions with the competence and 
political will of our treaty partners. Our recognition of the 
importance of effective treaty implementation led to the development of 
a consultation clause that we include in our MLATs, to ensure that we 
will have regular dialogues with our treaty partners on the handling of 
our cases.
    While all the MLATs before the Committee share certain standard 
features, the specific provisions vary to some extent. The technical 
analyses and transmittal packages explain these variations, which are 
the result of negotiations over a period of years with a range of 
countries, each of which has a different legal system and each of which 
represents a different law enforcement priority for the United States.
    I would like to highlight how each of the MLATs before the 
Committee reflects our international law enforcement priorities:

  <bullet> Belize MLAT: The MLAT will join the new extradition treaty 
        with Belize to form the basis of a modern law enforcement 
        relationship between our two countries. Both U.S. and Belizean 
        negotiators viewed the MLAT as an instrument to enhance efforts 
        to combat narcotics trafficking, which efforts will be carried 
        out, in part, through assistance in freezing and seizing 
        criminally-derived assets. In addition, as Belize is an off-
        shore financial jurisdiction, an exchange of diplomatic notes 
        accompanies the treaty to memorialize the parties' intent to 
        cover assistance in criminal tax matters.

  <bullet> India MLAT: The MLAT with India will, similarly, join with a 
        new extradition treaty to update and enhance our law 
        enforcement relationship. We expect the MLAT to be of 
        particular assistance in investigating and prosecuting criminal 
        matters relating to terrorism, narcotics trafficking, economic 
        crimes and organized crime.

  <bullet> Ireland MLAT: The Ireland MLAT will enhance our network of 
        such treaties with member states of the European Union and will 
        facilitate our requests to Ireland for assistance in a variety 
        of cases, including those related to money laundering, 
        transnational terrorism and organized crime.

  <bullet> Liechtenstein MLAT: This treaty represents an important 
        breakthrough in our ability to pierce bank secrecy laws in 
        Liechtenstein, a major off-shore financial center, and is the 
        first MLAT for Liechtenstein. Liechtenstein has agreed to 
        provide assistance in investigations and prosecutions involving 
        tax fraud offenses and, through an exchange of notes 
        accompanying the treaty, conduct which is deemed tax evasion 
        under U.S. law clearly will be covered.

  <bullet> Sweden MLAT: This MLAT will facilitate our requests to 
        Sweden--another European Union state--for assistance in a 
        variety of criminal cases, including those related to 
        terrorism, fraud, tax, computer crime, money laundering and 
        homicide.
                       the stolen vehicle treaty
    The Department of Justice supports the stolen vehicle treaty with 
Honduras, which is similar to the other such treaties in force with 
Belize, the Dominican Republic, Mexico and Panama. I endorse Mr. 
Witten's testimony on behalf of this treaty, and join him in urging the 
Committee to recommend its advice and consent to ratification.
                               conclusion
    We appreciate the Committee's support in our efforts over the years 
to strengthen and enlarge the framework of treaties that assist us in 
combating international crime. We at the Department of Justice view 
extradition and mutual legal assistance treaties as particularly useful 
tools in this regard. In addition, as our network of international law 
enforcement treaties has grown in recent years, we have focused 
increasing efforts on implementing our existing treaties, with a view 
to making them as effective as possible in the investigation and 
prosecution of our most serious crimes, including those related to 
terrorism. We join our colleagues from the Department of State in 
urging the prompt and favorable consideration of these treaties, to 
enhance our ability to fight transnational crime. I will be pleased to 
respond to any questions the Committee may have.

    Senator Boxer. Thank you very much, Mr. Witten and Mr. 
Swartz. Having you there is a comfort to us, because you 
clearly know what you are doing, and that is a comfort to us.
    Here is what I am going to do. I have a number of 
questions, and I am going to tell you what they are and then I 
am going to submit them for the record in the hopes that--I do 
not think any of them will stump you, but I need to have the 
answers in writing before we take this to the committee, so I 
am hoping you will be able to get to these immediately and then 
if you have any problem with that, let us know, because we want 
to get these through as much as you do, so I am going to kind 
of lay out the questions in an abbreviated form, but you will 
get them all in writing, so not to worry, and I am going to ask 
you about the one issue about Sweden here, but on the 
extradition treaties, does the dual criminality provision in 
the treaties before us today ensure that child abduction is a 
covered crime? Is the United States making an effort to update 
aged extradition treaties with those nations where child 
abduction problems are most common?
    The second question, if confidence among the Peruvian 
public and the judiciary is low, why should the United States 
have confidence that a subject extradited to Peru will have a 
fair trial? Doesn't Peru's appeal of the commission's decision 
to the Inter-American Court show an unwillingness to 
acknowledge problems with its judicial system?
    The third question deals with a treaty that is not before 
us today, but I recently received a letter from a district 
attorney in California who was concerned about a decision by 
the Mexican Supreme Court that has resulted in the refusal to 
extradite Mexican nationals charged with serious offenses that 
carry a potential life sentence.
    On October 2, 2001, Mexico's Supreme Court of Justice ruled 
that in order for any extradition to proceed, the requesting 
State must provide assurances that life imprisonment will not 
be imposed. The ruling has the potential to impact all 
extradition cases between the United States and Mexico, and 
this seriously and severely impacts my State of California. Is 
this a problem that is limited to Mexico, or the beginning of a 
larger trend?
    And while, again, the treaty is not before us today, I will 
submit the letter from my California constituent for the record 
and let you see it, and ask that you get back to me and my 
constituent about this serious concern.
    [The letter referred to is on page 29.]
    Senator Boxer. A fourth question, are you aware of any 
significant outstanding cases pending between the United States 
and either Lithuania or Peru which would be impacted by the 
approval of either of these extradition treaties?
    Then on the mutual legal assistance treaties, this is the 
one I am going to ask you to answer now, but the other 
questions you will receive in written form.
    As I mentioned in my opening statement, serious concerns 
have been raised about Sweden's failure to meet its obligations 
under the Hague Convention on the Civil Aspects of 
International Child Abduction. In 1998, Paul Marikovich, a 
constituent of mine from California, testified before this 
committee on the issue of parental abduction. He spoke about 
his own painful and personal experience of having a son 
abducted and taken to Sweden by his ex-wife.
    While father and son are now together, it is not because of 
any assistance provided by the Swedish Government, that 
actually did nothing to find the abducted child or the 
kidnaper. According to the most recent report to Congress, 
``the Department of State remains concerned about the 
commitment of Swedish authorities to act promptly to locate 
children and to force return on access orders issued under the 
convention.''
    Now, I also have another statement I am going to place in 
the record without objection. A gentleman from Alexandria, 
Virginia, writes regarding a request for denial of Senate 
advice and consent to ratification of the Swedish mutual legal 
assistance treaty, and he basically says: this gentleman has 
had a painful situation, as well as a child abducted, and it is 
not resolved, and he goes on for quite a while, and again I 
would ask that you write to him and let us know.
    [The statement referred to is on page 32.]
    Senator Boxer. In any event, why should the United States 
enter into this mutual legal assistance treaty relationship 
with Sweden when it is not living up to its commitments under 
other treaties? I think that is a fair question for my 
constituent to ask as well as this gentleman. I would ask it on 
their behalf.
    Mr. Swartz. Thank you, Madam Chairman. We certainly 
understand the importance of asking this question and, as I 
mentioned in my opening statement, we certainly recognize the 
seriousness of this issue. My colleague, Mr. Witten, will 
address a number of steps that the State Department is taking 
to deal with the child abduction issue.
    From the perspective of the Department of Justice, child 
abduction is a serious problem. We, in fact, did seek mutual 
legal assistance from Sweden with regard to the case of your 
constituent, and were active in trying to pursue that matter 
and, of course, as you know, there was a criminal prosecution 
as well in connection with that case.
    We believe, however, from the Department of Justice 
perspective that we look at the broader picture with regard 
both to the child abduction issue as it plays out in other 
countries and the mutual legal assistance treaty involving 
Sweden. It, of course, is well-known that Sweden is not the 
only country, unfortunately, in which there have been problems 
in dealing with child abduction matters. These are always 
difficult and very painful cases.
    We take an interest in trying to ensure that proper steps 
are taken, but the sad fact remains that a number of countries, 
including countries we have treaty relationships with, have 
presented issues in this regard. Sweden is not the only 
country, and the treaty, of course, extends far beyond child 
abduction issues. Its importance to the United States that it 
runs from organized crime to money laundering to, more 
recently, terrorism.
    Sweden, of course, as you know, Madam Chairman, has taken 
into custody an individual who tried to board a plane with a 
weapon. It is that kind of case, kind of situation we have had 
with terrorism financing, that we believe makes it particularly 
important to move forward now, while at the same time seeking 
to ensure that we push Sweden and all other countries to comply 
with the Hague Convention.
    Senator Boxer. Thank you.
    Mr. Witten.
    Mr. Witten. Thank you, Senator. First, the State Department 
fully shares the comments made by Mr. Swartz about the 
importance of the treaty. The treaty is of general and broad 
application, and has been sought by the Justice Department for 
some years. We are very conscious, though, of the concerns that 
you stated back in 1998, when Senator Helms raised similar 
questions. We spent a fair amount of time with the committee 
and the committee staff discussing these issues, and we 
continue to work with Sweden and other countries to improve 
their compliance with the Hague Convention, notwithstanding 
certain longstanding cases, including the ones that you 
mentioned that continue to be of concern.
    Sweden's performance is steadily improving. More needs to 
be done. Its current performance exceeds or is similar to other 
European countries, and is similar to the performance of the 
United States vis-a-vis Sweden in these cases.
    The United States, through the Consular Affairs Bureau and 
through our Childrens Issues Office, works closely with 
American parents, does what it can to assist them in pursuit of 
these cases. As Mr. Swartz' comments reflect, this is an issue 
that the State Department works on both on its own and with the 
Justice Department in connection with the criminal aspects of 
child abduction, be they extradition matters or framework 
agreements like the Sweden MLAT that, in addition to applying 
to all of the crimes that Mr. Swartz mentioned, could be used 
to seek assistance in connection with the criminal aspects of 
parental child abduction. As a result, there are distinct 
advantages to going forward with the treaty.
    We will be pleased to lay this out in greater detail for 
you and the committee in writing when we get your written 
questions, but that is the thrust of what we will say.
    Senator Boxer. Let me just respond to you and say that I 
think we need to speak out a little stronger on this issue, if 
I might say. This is not just a criticism of this 
administration. My criticism goes way back, it does not matter, 
and I think that there is a lot of bigger fish to fry in your 
minds. You said that, Mr. Swartz. I understand it, but let me 
just say--I want to read to you from this letter from Thomas 
Johnson. He says, ``it has been my privilege to serve my 
country for more than 33 years of active and reserve Marine 
Corps duty, retiring as a colonel in 1999, and for more than 23 
years with the Department of State, primarily as an attorney, 
including extensive experience concerning law enforcement 
treaties.''
    He says, ``I have no complaints about the manner in which I 
have been treated and, in fact, owe the Marine Corps far more 
in many ways than I can ever repay. As you undoubtedly know, 
one point emphasized from the outset at Quantico and the 
recruit depots is that marines never leave anyone behind, 
including the bodies of our dead.''
    Not surprisingly, therefore, he writes, ``I have major 
complaints about the manner in which the executive branch, 
despite the absence of any possible justification or excuse, 
has badly let down and then abandoned thousands of our youngest 
citizens who have been abducted and retained abroad and are, of 
course, victims of Federal and State felonies. This abandonment 
includes the State Department practice of, `writing off' 
American children by asserting an American child's case is 
resolved--for purposes of the annual Hague child abduction 
convention report to Congress--as soon as the foreign country 
concerned definitively refuses to return the child.
    ``The many years of congressional efforts to help abducted 
American children and their left-behind parents have, in 
varying degrees, been opposed, weakened, undermined, ignored, 
or violated.
    ``As all of us were forcefully reminded last week, there is 
probably no greater loss than the loss of a child. We all know 
there are many ways to lose a child. None of them is acceptable 
. . .'' and this whole letter will be included in the record.
    I have to say, my experience tells me--and again, this is 
not a matter of just this administration in particular--that 
other issues trump this issue, and it is very disturbing. What 
I hope that you can do before we vote on this treaty is to give 
me, as you answer these questions in writing, the steps the 
State Department is taking today to resolve these issues, and I 
would also like to see us address this on a very high level to 
the Government of Sweden and all other governments that are 
known to sweep these issues under the rug, despite promises to 
the contrary, and I understand what you are saying to me, but I 
translate it as, this is not as important as other things.
    Now, my view is that we need to fight for this a little 
more than we do, and we need to call attention to it, because 
my view is that world opinion is important to these countries, 
and if we just try to be very quiet about this--it is like my 
efforts when I worked to free refuseniks in the old Soviet 
Union.
    I was so afraid in the beginning. I said, well, if I 
mention their names, if I highlight them, won't they be 
jeopardized, and I was told by the people who knew best, the 
people who knew how to get these people out, shine the light of 
day, so we need to shine the light of truth on these cases, 
despite the fact that we may embarrass some of our friends. It 
is not right, and God knows, I have seen too many of these 
things, and we mourn for our children that are abducted and 
lost, and kidnaped here. Why don't we mourn for the ones that 
wind up over there?
    So I would like to see in your answer some very concrete 
steps that you plan to take, and if we are not taking them, 
that you will consider taking, that otherwise we are going to 
have to pass some laws, and it is going to get confused here, 
so I would rather see it done through your good offices than we 
get into some legislative infrastructure.
    Senator Helms and others are very concerned about this 
matter, so we have concerns across party lines here, which I 
think is an indication to you that this is not something we 
want to sweep under the rug.
    Would you like to respond?
    Mr. Witten. Yes, Senator. I will address your comments, and 
then I think my colleague, Bruce Swartz will as well.
    First, we will certainly answer in detail the questions you 
have raised and the concerns. The issue of parental child 
abduction does not get swept under the rug. It is true that it 
is one of a number of issues, but it is a very high priority 
for us. We have worked with respect to Sweden, and the Swedish 
Central Authority has recently arranged the return of an 
abducted child, and we will lay that out for you. While 
progress has been made, the State Department stands firm and 
strong in its commitment to help families, and we will continue 
to do so.
    We will lay this out in detail for you, Senator, but I just 
want to be sure you understand that this is not being swept 
under the rug by anybody. We are totally committed to this 
issue.
    Senator Boxer. I am glad to hear that.
    Mr. Swartz. And Madam Chairman, if I may for a moment, I 
certainly did not want to leave the impression by my testimony 
that the Department of Justice believes that other law 
enforcement considerations trump this important issue of child 
abduction. It is the case that we do feel strongly about those 
abduction matters. We work closely with the State Department in 
that regard.
    The mutual legal assistance treaty with Sweden is important 
for the American public for a variety of reasons. It is not 
being suggested that we enter into this treaty to reward 
Sweden. It is simply to allow us to do a better job of 
protecting American citizens against international terrorism.
    Senator Boxer. Thank you, and I look forward to your 
responses in addition to this particular case, if you can, and 
then we will also ask you to let us know in writing how will 
ratification--and you have touched on this a little bit, I 
think, and expansion would be good. How will ratification of 
these and future mutual legal assistance treaties help in 
fighting the war on terrorism? I assume it is very important. 
There are outstanding cases in which quick passage of these 
five treaties is necessary. That would be helpful, too.
    In general terms, please describe the volume of requests 
that normally result following entry into force of an MLAT. Do 
the Departments of State and Justice have adequate resources to 
implement requests in a timely fashion, so let us know that.
    And then on the stolen vehicle treaty with Honduras, what 
is the current state of law enforcement cooperation in general 
with Honduras? What has been the experience to date under the 
stolen vehicle treaties which entered into force since the 
Senate approved such treaties in 2000?
    So that will be the questions that we ask you. I want to 
thank you both very, very much, and I really look forward to 
getting your answers, and will present them to Senator Biden 
and to our Ranking Member, Senator Helms, and hope that we can 
move forward with these, and at that time, if I have some good 
answers to this question regarding these kidnapings it would be 
very helpful in pushing that particular treaty forward, because 
I know several colleagues have concerns, but I do have a lot of 
faith in your expertise.
    And again, I want to thank you both for being here, and 
this meeting stands adjourned.
    [Whereupon, at 11:40 a.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]

                              ----------                              


            Responses to Additional Questions for the Record


Responses From the Department of State to Additional Questions for the 
            Record Submitted by Senator Joseph R. Biden, Jr.

    Question. Are there any related exchange of notes, official 
communications, or statements of the negotiating delegations not 
submitted to the Senate with regard to any of the treaties which would 
provide additional clarification of the meaning of treaty terms?

    Answer. No additional exchanges of notes, official communications 
or statements of the negotiating delegations exist that would provide 
additional clarification of the meaning of any of the treaties and that 
have not already been submitted to the Senate.
                          u.s.-canada protocol
    Question. Why is the provision on crediting of sentences in new 
Article 7bis(3) discretionary?

    Answer. The provision on crediting of sentences in Article 7bis(3) 
is discretionary to allow the Requested State the flexibility to 
accommodate different approaches, particularly as among U.S. states and 
between U.S. state and federal authorities.

    Question. The discussion of new Article 7 bis(3) (page vi of Treaty 
Doc. 107-1) indicates that ``credit for time served by a person 
surrendered to Canadian authorities may differ among U.S. state and 
federal authorities.'' Please provide some examples of such 
differences.

    Answer. There are variations in state law with respect to credit 
for time served. In addition, in drafting this permissive provision, 
the negotiators wanted to preserve the Requesting State's flexibility 
to accommodate possible future changes to relevant law. For instance, 
there has been consideration at the federal level in the United States 
of a legislative change that would disallow credit against a U.S. 
sentence for time spent in foreign custody fighting extradition to the 
United States.
                      extradition treaty with peru
    Question. Please provide the following information with regard to 
extradition requests by each country under the existing extradition 
treaty in each of the last three calendar years: the number of 
requests; the types of offense involved in the requests; the number of 
requests granted; and the number of requests denied and the stated 
reason for denial.

    Answer. Peru made two requests in 2000, ten requests in 2001 and 
six requests in 2002 (year to date) in cases involving bribery, drug 
trafficking, embezzlement, extortion, fraud, forgery, money laundering, 
official corruption and theft. The United States made no requests in 
2000, three requests in 2001 and one request in 2002 (year to date) in 
cases involving narcotics and money laundering. During this period, the 
United States has granted two of Peru's requests and denied 14 requests 
for insufficiency of the evidence or non-extraditable offenses. One 
case remains pending before U.S. courts and one fugitive was arrested 
outside the United States and returned to Peru. Peru has granted three 
U.S. requests (two fugitives approved for extradition are awaiting 
surrender, one is at large). One other fugitive that is the subject of 
an U.S. request is also at large. Peru denied one request (submitted in 
1999) in 2002 due to expiration of the Peruvian statute of limitations 
for the offense charged (DUI homicide).

    Question.  The most recent Country Report on Human Rights Practices 
(2001) for Peru states that ``[t]he Constitution provides for an 
independent judiciary; however, in practice the judiciary has been 
subject to interference from the executive. It is also subject to 
corruption and is notably inefficient. Public confidence in the 
judiciary remains low.''
    If confidence among the Peruvian public in the judiciary is low, 
why should the United States have confidence that a suspect extradited 
by the United States to Peru will receive a fair and speedy trial?

    Answer. Since the downfall of the Fujimori government in November 
2000, Peru has made many strides to correct deficiencies in its 
judicial system. At the end of 2000, Peru abolished the executive 
committees through which former president Fujimori had exercised 
control over the judiciary, restored the powers of the National 
Magistrates Council (CNM) to evaluate judges and prosecutors, and 
created transitory councils to remove corrupt judges. In late 2000, the 
Peruvian government established a new Pardons Commission to examine the 
cases of persons imprisoned for terrorism under the Fujimori 
government. As of October 2001, 90 persons had been released from 
prison. Along with over 600 persons pardoned between 1996 and 2000, a 
total of over 700 persons were pardoned and released after being 
accused unjustly of terrorism. In August 2001, President Toledo nearly 
doubled the salaries of tenured judges and prosecutors to make working 
in the judiciary more attractive and to reduce corruption incentives. 
Thus, while much work remains to be done, Peru is taking active steps 
to reform its judicial system.
    Under U.S. extradition law and practice, once a fugitive has been 
found extraditable by a U.S. court, the Secretary of State (or Deputy 
Secretary) must review the case and issue a surrender warrant before 
that person could be extradited to Peru or any other country with which 
we have an extradition treaty. As part of that review and decision-
making process, the Secretary takes into account any information 
available that may affect the defendant's ability to receive a fair 
trial.

    Question. With regard to Article IV(5):
  <bullet> please summarize the concerns of the U.S. delegation that 
        led to the conclusion of this paragraph;
  <bullet> what laws or practices in Peru does the United States 
        consider to constitute ``extraordinary laws and procedures'';
  <bullet> did the two sides reach a common understanding with regard 
        to the meaning of ``extraordinary criminal laws or procedures, 
        and if so, what was it;
  <bullet> did the Peruvian delegation indicate that it had any 
        concerns about existing U.S. law or practices that it 
        considered to constitute ``extraordinary criminal laws or 
        procedures''; and
  <bullet> have there been any discussions with Peru regarding this 
        paragraph since signature of the treaty?

    Answer. This provision was included at the instance of the United 
States based on particular concerns at the time of the negotiations 
over due process issues in cases that were brought before Peru's 
special terrorism tribunals. During the Fujimori administration (1990-
2000), military courts tried civilian (as well as military) defendants 
in cases of treason or aggravated terrorism. Certain procedures before 
those tribunals did not provide sufficient due process protection for 
the accused. During the negotiations, the two sides understood that the 
phrase ``extraordinary criminal laws or procedures'' was specifically 
intended to refer to proceedings before Peru's special terrorism 
tribunals. The Peruvian delegation did not express any concerns about 
U.S. law or practice. Since the negotiations, the U.S. concerns have 
been assuaged considerably by the departure of former president 
Fujimori, subsequent reforms to the Peruvian legal system, and the 
decline in the use of such special terrorism tribunals in Peru. In 
fact, some cases originally tried in special terrorism tribunals have 
been retried recently in the civilian court system. There have not been 
any discussions with Peru regarding this paragraph since the treaty was 
signed.

    Question.  Article X(2) does not indicate whether a person serving 
in the Requested State who is temporarily surrendered to the Requesting 
State for prosecution in another matter will be eligible for credit for 
time served (as does the Canada Protocol). Why is that issue not 
addressed? Is such granting of credit for time served precluded?

    Answer. Article X(2) of the Peru extradition treaty is similar to 
the temporary surrender provision in the Lithuania extradition treaty 
and is typical of those found in recent U.S. extradition treaties 
generally. The Canada Extradition Protocol specifically addresses the 
question of credit for time served because that was a particular 
concern of the Canadian delegation at the time of the negotiations. The 
lack of treatment of this issue in the Peru treaty or in other U.S. 
bilateral extradition treaties does not preclude the granting of credit 
by the Requested State for time served in the Requesting State.

    Question.  Does the use of the term ``agreement'' in the last 
sentence of Article X(2) imply that a formal agreement will be reached 
governing all such transfers, or are agreements negotiated in 
connection with each individual surrender?

    Answer. The term ``agreement'' in this instance generally refers to 
informal agreements or arrangements concerning the conditions of a 
transfer that are made in connection with each individual surrender. 
Normally, such informal agreements or arrangements are made by the law 
enforcement authorities that have custody of the person being 
surrendered.
                   extradition treaty with lithuania
    Question.  Please provide the following information with regard to 
extradition requests by each country under the existing extradition 
treaty in each of the last three calendar years: the number of 
requests; the types of offense involved in the requests; the number of 
requests granted; the number of requests denied and the stated reason 
for denial.

    Answer. Lithuania made two requests in 2001 and three requests in 
2002 (year to date) in cases involving attempted homicide, 
embezzlement, fraud, forgery, narcotics and theft. The United States 
has not made any requests in the last three years. With respect to the 
requests from Lithuania, the United States has not yet granted or 
denied those requests.

    Question.  Please summarize the degree and nature of cooperation 
with Lithuania under the Mutual Legal Assistance Treaty with Lithuania.

    Answer. Since entry into force of the MLAT with Lithuania on August 
8, 1999, the U.S. Government has made four requests for assistance to 
Lithuania. Two requests were granted and have been fully executed. Two 
requests are pending. All the cases involved fraud offenses. Two cases 
also involved money laundering. One case also involved copyright 
infringement. In the cases in which Lithuania provided assistance, that 
assistance was timely and complete.
    In the same time frame, Lithuania has submitted assistance requests 
to the United States in approximately 82 cases, of which 46 cases are 
pending. The U.S. granted complete or partial assistance in a vast 
majority of the closed cases. The requests arise in investigations or 
prosecutions for a wide range of criminal offenses, including, but not 
limited to: assault, homicide, narcotics trafficking, money laundering, 
fraud, embezzlement, extortion, computer crimes, tax offenses, weapons 
violations (firearms and explosives), immigration and customs 
violations and official corruption.
    The type of assistance sought by both countries has generally 
involved the interview of witnesses and the production of official and 
business records.

    Question.  Article 13(1) does not indicate whether a person serving 
in the Requested State who is temporarily surrendered to the Requesting 
State for prosecution in another matter will be eligible for credit for 
time served (as does the Canada Protocol). Why is that issue not 
addressed? Is such granting of credit for time served precluded?

    Answer. Article 13(1) of the Lithuania extradition treaty is 
similar to the temporary surrender provision in the Peru extradition 
treaty and is typical of those found in recent U.S. extradition 
treaties generally. The Canada Extradition Protocol specifically 
addresses the question of credit for time served because that was a 
particular concern of the Canadian delegation. The lack of treatment of 
this issue in the Lithuania treaty or in other U.S. bilateral 
extradition treaties does not mean that the granting of credit by a 
requested state for time served in the requesting state prior to 
temporary surrender is precluded.
                            mlat with belize
    Question. Please summarize the nature and extent of law enforcement 
cooperation between the United States and Belize in recent years.

    Answer. The current extradition treaty with Belize entered into 
force in March 2001. Cooperation under this treaty and its predecessor 
has generally been good. Since 1998, we have submitted ten extradition 
requests to Belize, and Belize has turned over four fugitives whose 
extradition we requested.
    In recent years, the United States has formally (outside of police-
to-police, informal channels) sought the assistance of the Government 
of Belize in several criminal cases involving fraud, money laundering, 
and narcotics trafficking. These requests have sought official/
governmental records, bank records, and asset seizure.
    The Department of Justice initially had problems securing bank 
records from Belize. The Government of Belize, through its Solicitor 
General, informed the Department of Justice that bank records could not 
be obtained in the absence of an MLAT and a change to Belize's domestic 
law. Since that time, the Department has developed contacts within the 
Central Bank of Belize who are able to obtain such authenticated 
records for use in U.S. criminal investigations and prosecutions.
    The United States also has encountered problems trying to freeze 
assets in Belize due to the absence of an MLAT. Because of this 
problem, the Department of Justice utilized the USA Patriot Act to this 
end. Belize now has amended its laws, thereby potentially permitting 
such assistance at this time.
    Although the United States has developed contacts and procedures 
enabling us to obtain assistance once not available, the MLAT will 
greatly enhance our ability to continue to receive assistance, and it 
will create a central authority for the receipt of all types of 
requests for mutual legal assistance.

    Question.  What does ``compulsory measures,'' as used in Article 
3(1)(f), contemplate?

    Answer. The United States and Belize contemplate that subpoenas 
will be issued by the Requested State in order to satisfy many requests 
made pursuant to the MLAT. In some situations, requested assistance is 
readily available, such as when governmental records are sought or when 
a witness agrees to voluntarily give testimony. However, compulsory 
process is sometimes required, such as when a witness must be compelled 
to testify and when bank records are sought and a subpoena is required 
before they can be released. The Requested State should be satisfied 
that compulsory process is sought in connection with a criminal 
investigation or prosecution, and that the treaty provisions are not 
being abused.

    Question.  Why is Article 3(1)(e) necessary?

    Answer. Article 3(1)(e) gives the Requested State the discretion to 
deny a request for search and seizure and asset forfeiture if the 
conduct under investigation or being prosecuted is not criminal in both 
countries. It is not unusual for MLATs to require dual criminality in 
such circumstances.
                            mlat with sweden
    Question.  Please summarize the nature and extent of law 
enforcement cooperation between the United States and Sweden in recent 
years.

    Answer. Sweden has a proven track record in cooperating with us in 
connection with our existing law enforcement treaty--the Extradition 
Treaty between the United States and Sweden--has been in force since 
1963. In the last two years, Sweden has extradited three defendants to 
the United States (one wanted for rape, one for fraud, and the other 
for narcotics offenses). All were provisionally arrested promptly at 
our request. In the same period, we have extradited two fugitives to 
Sweden (one was an accused murderer, the other was wanted for parental 
child kidnapping and requested that she be extradited after she was 
arrested). We have provisionally arrested another fugitive from Sweden 
for serious narcotics offenses.
    In connection with mutual assistance requests, during this same 
time period, we have assisted Sweden in a number of fraud, computer 
crime, murder (3 cases), official corruption, and narcotics cases, as 
well as in a tax case. We have denied two of their requests, however, 
because they sought tax returns. Without the treaty, we cannot give tax 
returns to Sweden.
    In recent years, Sweden has acted promptly and professionally to 
assist us in cases involving pornography, weapons and explosives, 
computer hacking (including an attack on U.S. government computers), 
tax, and fraud.

    Question.  What is the value of this treaty to U.S. law enforcement 
interests?

    Answer. The proposed MLAT with Sweden will enhance bilateral 
cooperation in law enforcement matters. The Administration plans to use 
this treaty to obtain assistance in connection with our efforts to 
fight terrorism, narcotics trafficking, organized crime, violent crime, 
money laundering, and terrorist financing and other crimes where Sweden 
has evidence that could assist us in our criminal investigations and 
prosecutions.
    The United States and Sweden already cooperate on a broad range of 
law enforcement issues, and we have received assistance from Sweden on 
judicial assistance requests on a case-by-case basis. However, formal 
requests may require the burdensome and time-consuming process of 
letters rogatory, and there is no binding obligation on Sweden's part 
to assist the United States. The proposed MLAT will require Sweden to 
provide us assistance and only permits Sweden to decline to assist us 
in very specific instances. The treaty also designates a central 
authority to facilitate action under such requests, thereby improving 
the ability of both countries to obtain the necessary judicial 
assistance to prosecute and investigate crimes.

    Question.  Are there any significant pending cases in the United 
States, the investigation or prosecution of which will be facilitated 
by the entry into force of this treaty?

    Answer. In recent years, Sweden has acted promptly and 
professionally to assist us in cases involving pornography, weapons and 
explosives, computer hacking (including an attack on U.S. government 
computers), tax, and fraud cases. The proposed MLAT would strengthen 
the legal foundation for such assistance and obligate Sweden to 
maintain this close and cooperative relationship on all criminal cases 
within the scope of the treaty.
                            mlat with india
    Question.  Please summarize the nature and extent of law 
enforcement cooperation between the United States and India in recent 
years.

    Answer. Indo-U.S. cooperation on law enforcement has improved over 
the past few years. We now have a legal attache's office in New Delhi, 
and shortly will open an office of the Customs Service. These offices 
have developed excellent relations with their local counterparts.
    The practical indications of the new relationship can be seen since 
the extradition treaty entered into force in July 1999. After a history 
of lengthy delays, most recently in 2002, an individual was extradited 
from India to the United States for fraud and stolen property charges--
within one year of the initial request. With respect to the United 
States, we most recently extradited two individuals to India in 2000 in 
connection with homicide and robbery charges. We expect this pattern to 
continue in the future.
    We receive a number of mutual assistance requests from India each 
year, which usually require execution in multiple judicial districts. 
For the most part, these requests relate to economic crimes committed 
in India, although more recently we have been receiving requests 
relating to Indian investigations of terrorist crimes. The United 
States sends a smaller number of requests to India that relate mainly 
to white collar and violent crimes. Similar to the extradition treaty, 
we expect the level of cooperation to improve with the entry into force 
of the MLAT.
                           mlat with ireland
    Question.  Please summarize the nature and extent of law 
enforcement cooperation between the United States and Ireland in recent 
years.

    Answer. Under the current extradition treaty with Ireland, Ireland 
follows the treaty strictly as Irish law and courts are very exacting. 
Ireland did not make any extradition requests this past year, but the 
United States did extradite one person wanted on a murder charge to 
Ireland in connection with a previous request. This past year, the 
United States made two provisional arrest requests, which were executed 
by Ireland. The extradition proceedings in connection with these 
provisional arrests are ongoing.
    On mutual assistance requests, Irish police cooperate extensively 
with U.S. law enforcement agents, including FBI, DEA and Customs agents 
based at our embassy in London. Their cooperation often occurs on an 
informal basis and covers a wide variety of cases, and in particular, 
fraud.
                        mlat with liechtenstein
    Question.  Please summarize the nature and extent of law 
enforcement cooperation between the United States and Liechtenstein in 
recent years.

    Answer. Even in the absence of a treaty, Liechtenstein has begun to 
establish a track record for providing assistance in a number of our 
criminal investigations and prosecutions. Changes in their domestic 
legislation, both with respect to their criminal code and their legal 
assistance law, have made it possible for them to overcome challenges 
by defendants to the providing of legal assistance to foreign 
governments.

    Question.  What is the value of this treaty to U.S. law enforcement 
interests?

    Answer. This treaty is of significant value to U.S. law enforcement 
interests. The U.S. makes a respectable number of assistance requests 
to Liechtenstein in very important investigations. As a prominent 
financial center, Liechtenstein has been an attractive destination for 
offshore deposits of illegal proceeds. While Liechtenstein has assisted 
U.S. authorities in the absence of a treaty, that assistance has not 
been consistently complete or timely. In recent years, however, 
political pressure placed on Liechtenstein through institutions such as 
the Financial Action Task Force and other fora has contributed to 
marked improvement in Liechtenstein's cooperation with the U.S. We 
believe the obligations Liechtenstein has undertaken in this treaty 
will continue and further bolster the improved cooperation we have seen 
in recent years.
    This cooperation is important to the U.S. because the cases for 
which the U.S. has sought assistance from Liechtenstein are often of 
national importance. They include, but are not limited to, 
investigations and prosecutions of such offenses as: large-scale fraud, 
narcotics trafficking, money laundering, securities fraud, extortion, 
racketeering, customs violations, and tax offenses. Moreover, 
Liechtenstein has sought assistance from the U.S. in cases involving 
similar offenses and, most recently, in investigations of terrorist 
financing and providing material support to terrorists. As a banking 
center, Liechtenstein runs the risk of having its financial 
institutions used by terrorists and other criminals to facilitate their 
operations and to conceal or launder their finances. The MLAT will 
facilitate U.S. law enforcement's access to potentially critical 
banking information.
                  stolen vehicle treaty with honduras
    Question. What is the current state of law enforcement cooperation, 
in general, with Honduras?

    Answer. Our law enforcement cooperation relationship with Honduras 
is functional, and we hope it becomes more extensive in the future.
    The extradition treaty between the United States and Honduras was 
signed in 1909, entered into force in 1912, and was modified by a 
supplementary convention of 1927. Although Honduras' recent record with 
respect to extradition under the treaty leaves room for improvement, 
the country has responded to U.S. requests by deporting fugitives to 
the United States where possible. We have as a long-term goal the 
negotiation of a modern extradition treaty with that country. Honduras 
does not have an MLAT relationship with the United States, but 
cooperates with U.S. law enforcement agencies on law enforcement 
matters in the absence of an MLAT.

    Question.  What has been the experience to date under the stolen 
vehicle treaties which entered into force since the Senate approved 
several such treaties in 2000?

    Answer. In 2000, the Senate gave its advice and consent to 
ratification of five stolen vehicle treaties. Three of the five 
treaties have entered into force: the Dominican Republic treaty 
(entered into force August 3, 2001), the Panama treaty (entered into 
force September 13, 2001), and the Belize treaty (entered into force 
August 16, 2002). The Costa Rica and Guatemala treaties are in the 
final stages of approval and entry into force, and we hope to bring 
them into force soon.
    The Belize treaty only came into force on August 16, and we have 
not yet had any experience under that treaty. We have begun making 
requests for the return of vehicles from Panama and Belize. We have 
thus far only made one request to Panama and are awaiting action on 
that request. Our Embassy in the Dominican Republic has made 
approximately 10 requests for the return of U.S. stolen vehicles. 
Dominican officials have already made six of these vehicles available 
for return, and the Embassy expects the remaining four vehicles to be 
available for return next month.

    Question. Which of the countries concerned by these law enforcement 
treaties have concluded so-called Article 98 bilateral agreements with 
the United States to protect American officials and service members 
from surrender to the International Criminal Court? For those which 
have not, when will such agreements be concluded?

    Answer. The United States and Honduras concluded an Article 98 
agreement on September 19. We are continuing our efforts to conclude 
Article 98 Agreements with as many countries as possible, including 
with the countries concerned by these law enforcement treaties.
                                 ______
                                 

Responses From the Department of State to Pre-hearing questions on MLAT 
       and Extradition Treaties Submitted by Senator Jesse Helms

    Question. Have any of these countries (Belize, Canada, India, 
Ireland, Liechtenstein, and Sweden) ever declined officially or 
informally to provide law enforcement assistance of any kind to the 
United States in a terrorism case without assurance that the death 
penalty or life imprisonment would not be imposed?

    Answer. No, none of these countries has refused for any reason to 
assist the United States in terrorism-related extradition or mutual 
assistance cases.

    Question. Do any of the indicated treaties explicitly require that 
the requested law enforcement assistance be provided to the United 
States, without ``assurances'', in a terrorism case even if the death 
penalty or life imprisonment could be imposed?

    Answer. Both the Lithuania and Peru extradition treaties, like most 
recent extradition treaties, allow requests for assurances that the 
death penalty will not be imposed or carried out. The United States 
agrees to include such a provision because in many countries, including 
Lithuania and Peru, the death penalty has been outlawed, and 
extradition to the United States in some extremely serious cases would, 
as a practical matter, be impossible unless there is a mechanism for 
assurances. The Second Protocol to the Canada extradition treaty does 
not address these kinds of issues. The existing extradition treaty with 
Canada, however, also allows for death penalty assurances, in cases 
where the offense involved is not punishable by death in the Requested 
State.
    Neither these extradition treaties nor the Canada extradition 
treaty contemplate the possibility of assurances that life imprisonment 
will not be imposed or carried out.
    Unlike extradition treaties, U.S. mutual legal assistance treaties 
in general, including the five (Belize, India, Ireland, Liechtenstein 
and Sweden) before the Senate, do not include death penalty assurance 
provisions. The issue of death penalty assurances has rarely arisen in 
this context, but a small number of countries recently have raised the 
potential of capital punishment for crimes as in connection with U.S. 
requests for legal assistance (whether the requests are made under 
treaty or as a matter of international comity and reciprocity). In 
these cases we have argued that the potential punisbment in a U.S. 
proceeding should not be a factor in whethe assistance should be 
granted.
    The issue of U.S. life imprisonment provisions has not arisen to 
our knowledge in the mutual assistance context.
                                 ______
                                 

Responses From the Department of State to Additional Questions for the 
                Record Submitted by Senator Jesse Helms

    On Monday, September 16, 2002, the State Department received 
fifteen questions from the Senate Foreign Relations Committee 
specifically directed at the proposed Mutual Legal Assistance Treaty 
(MLAT) with Sweden. Many of these questions addressed related aspects 
of the same issues. Because of this close relationship among many of 
the questions, and with the concurrence of the Senate Foreign Relations 
Committee staff, we have developed a single narrative reply to all of 
the questions. Set forth below are (i) the questions presented on 
September 16 and (ii) the consolidated answer.

    Questions:

    1. The Swedish MLAT was negotiated and initialed roughly seven 
years ago. Why did the Department wait so long to submit it to the 
Senate?

    2. Provisions in the Swedish Penal Code have been used to imprison 
American citizens in Sweden, but in the United States would be 
considered unconstitutional (e.g., interference with freedom of speech 
or expression) or contrary to human rights or public policy standards 
(e.g., legislation originally intended for use against African or Arab 
``fathers from the south'' but utilized against Americans and any non-
Swedish fathers for attempting to exercise sole or joint child custody 
rights even under Swedish law). Will the Department help the Swedes 
enforce such provisions?

    3. Should the U.S. enter into the proposed MLAT before Sweden 
agrees to extradite its nationals for parental child abduction, to 
consistently return American children under the Hague Convention, and 
before Sweden reforms its child custody system to provide enforceable 
access and visitation for American parents to children held in Sweden?

    4. As a practical matter, an MLAT with Sweden would put the U.S. 
Government in the position of: (a) being obligated to assist Sweden 
(e.g., concerning an alleged effort to re-abduct an American child 
being held in Sweden) in cases involving ongoing felonies against 
American citizens by Swedish citizens receiving financial support 
(especially payment of legal fees in Sweden and the U.S.) and other 
assistance from the Swedish government, and (b) being obligated, in 
cases where a Swedish custody order eventually appears for an abducted 
American child, to respect and enforce such orders against the left-
behind American parents (under the extradition treaty, MLAT, and/or 
Hague Convention), despite the facts that Sweden will not respect any 
U.S. court orders in the case (owing to the absence of comity from the 
Swedish legal system) and cannot enforce any custody or visitation 
rights for the American parent even under the Swedish custody order 
(owing to the absence of anything comparable to contempt of court in 
the Swedish legal system). How can (a), (b), or both, be justified?

    5. An MLAT with Sweden would constitute one more element in the 
two-front war faced by the victims of Swedish child abductors, in view 
of the willingness of the U.S. to extradite Americans who recover their 
abducted children from abductors enjoying a safe haven in Sweden, 
combined with the inability of the Swedish courts either to control the 
conduct of Swedish parents or enforce/protect the parental rights of 
non-Swedish parents through contempt of court or other means. How can 
this be justified?

    6. What is your assessment as to the quality of due process of law 
in the Swedish criminal justice system (e.g., in terms of hearsay and 
other rules of evidence, right to confront witnesses, authentication of 
documents, etc.)?

    7. What is your assessment of Sweden's tactics (arguably mail 
fraud, attempted extortion, and possibly RICO violations) in demanding 
that left-behind American parents reimburse the Swedish government for 
legal fees, maintenance, and child support it pays to Swedish child 
abductors?

    8. What comments do you have on Sweden's general level of respect 
for U.S. law, as reflected by Swedish conduct in assisting an accused 
Swedish murderer to escape from the U.S. (Per Strom case in the late 
1980s), engaging in diplomatic visa fraud (Franzen case in the early 
1990s), and in instructing the Swedish police that U.S. child custody 
orders ``have no validity in Sweden'' even in the absence of any 
Swedish order (Foreign Ministry memorandum in 1996)?

    9. In view of the generally one-way nature of our current 
extradition and Hague child abduction convention relationships with 
Sweden, and Sweden's violations of its treaty obligations to the United 
States under those treaties (e.g., Sweden's failure in certain cases to 
extradite even American citizens from Sweden), why should the United 
States enter into another law enforcement treaty with Sweden and 
undertake new obligations to a country that frequently has not met its 
existing obligations to us?

    10. In view of Sweden's refusal to extradite its own citizens to 
the United States or effectively prosecute them with U.S. evidence, 
Sweden's frequent failure to return abducted American children under 
the Hague Convention, the absence of comity from the Swedish legal 
system resulting in U.S. court orders receiving no respect, and the 
inability and/or unwillingness of the Swedish legal system to enforce 
any access or visitation for left-behind American parents (owing to the 
absence of anything remotely comparable to contempt of court, how will 
the Swedish MLAT improve this situation?

    11. Since American citizens have no effective remedy of any kind 
when they are victims of crimes by Swedish citizens who are not 
apprehended in the United States and then use Sweden as a safe haven, 
what is the justification for the recent extradition of an American 
mother to Sweden for parental child abduction (when there is no 
enforceable access or visitation in Sweden for non-Swedish parents)? 
Why increase the one-sided nature of this bilateral law enforcement 
treaty relationship with an MLAT?

    12. In view of the fact that the Hague child abduction convention 
is an attempt to remedy criminal conduct by civil means (since even 
extradition and prosecution of a child abductor does not bring about 
return of the child), do you agree that the interrelated civil and 
criminal nature of international parental child abduction makes it 
impossible to separate Sweden's Hague Convention violations and 
tangible support for child abductions by its citizens on the one hand 
from the question of its reliability in law enforcement matters on the 
other?

    13. Should any promise by Sweden of meaningful assistance under an 
MLAT to U.S. law enforcement authorities in child abduction cases 
involving Swedish citizens be taken seriously?

    14. When Sweden considers it in its interest to do so, doesn't 
Sweden already provide assistance in criminal matters without an MLAT?

    15. In view of Sweden's poor record of compliance with the 
extradition treaty and Hague child abduction convention, what is the 
basis to conclude that its level of compliance would be better under an 
MLAT?

    Answer:
Summary
    This responds to the questions received by the State Department on 
Monday, September 16, 2002, regarding Sweden and the mutual legal 
assistance treaty (MLAT) between the United States and Sweden. The 
questions raise the issue of whether Sweden's record of compliance 
under the Hague Convention on the Civil Aspects of International Child 
Abduction (Hague Convention) should be a basis for the Committee to 
refuse approval of the MLAT with Sweden that the President has 
submitted for the Senate's advice and consent.
    It is the Administration's position that the MLAT is a valuable law 
enforcement tool, and that it should be approved on its merits as such. 
The experience of this last year has only underscored the international 
character of the crimes most threatening to our citizens, and thus our 
responsibility to provide U.S. prosecutors and investigators the means 
to secure evidence from abroad. Our experience with Sweden under our 
extradition treaty, and in obtaining evidence even absent a treaty, has 
generally been good, and gives us confidence that an MLAT with Sweden--
like the more than forty MLATs already in force with other countries 
around the world--will assist our law enforcement authorities in 
preventing, investigating and prosecuting serious crimes.
    The problem of international parental child abduction, and of 
compliance with the Hague Convention by treaty partners including 
Sweden, are matters of serious concern to the State and Justice 
Departments. As discussed more fully below, while certain long-standing 
cases remain troubling, we believe Sweden's record under the Hague 
Convention--a convention governing the civil aspects of international 
parental abduction--has been steadily improving. The positive trend has 
been noted in our compliance reports to Congress and has been 
reinforced by recent experience involving Sweden. Notwithstanding these 
encouraging developments, we will continue to seek further improvement 
with Sweden, as with other countries, because compliance with the Hague 
Convention is a serious matter in its own right. However, these 
concerns need not and should not be linked to questions relating to the 
MLAT.
    The MLAT is a law enforcement tool. The wisdom of the Foreign 
Relations Committee in approving dozens of similar treaties over the 
years has been well illustrated by the numerous cases--now including 
investigations related to the attacks of September 11th--in which the 
Department of Justice has been able to use MLATs to obtain evidence 
critical to the investigation and prosecution of serious crimes against 
the United States and its citizens. Accordingly, we urge the Committee 
to recommend advice and consent to ratification of the MLAT with 
Sweden.
The MLAT Is An Important Law Enforcement Tool
    The proposed MLAT with Sweden will enhance bilateral cooperation in 
law enforcement matters. The Administration plans to use this treaty to 
obtain assistance in connection with our efforts to fight terrorism, 
narcotics trafficking, organized crime, violent crime, money 
laundering, and terrorist financing and other crimes where Sweden has 
evidence that could assist us in our criminal investigations and 
prosecutions.
    The United States and Sweden already cooperate on a broad range of 
law enforcement issues, and we have received assistance from Sweden on 
judicial assistance requests on a case-by-case basis. However, formal 
requests may require the burdensome and time-consuming process of 
letters rogatory, and there is no binding obligation on Sweden's part 
to assist the United States. The proposed MLAT will require Sweden to 
provide us assistance and only permits Sweden to decline to assist us 
in very specific instances. The treaty also designates central 
authorities to facilitate action under such requests, thereby improving 
the ability of both countries to obtain the necessary judicial 
assistance to prosecute and investigate crimes.
Sweden's Record of Cooperation
    Sweden has a proven track record in cooperating with us in 
connection with our existing law enforcement treaty--the Extradition 
Treaty between the United States and Sweden--has been in force since 
1963. On October 1, 2000, new legislation entered into force in Sweden 
that transferred traditional authority to handle international criminal 
judicial cooperation (mutual assistance, extradition, transfer of 
prisoners, and service of documents) from the Ministry of Foreign 
Affairs to the Ministry of Justice. This has enhanced Sweden's ability 
to work effectively and expeditiously with the United States on law 
enforcement matters.
    In the last two years, Sweden has extradited three defendants to 
the United States (one wanted for rape, one for fraud, the other for 
narcotics offenses). All were provisionally arrested promptly at our 
request. In the same period, we have extradited two fugitives to Sweden 
(one was an accused murderer, the other was wanted for parental child 
kidnapping and requested that she be extradited after she was 
arrested). We have provisionally arrested another fugitive from Sweden 
for serious narcotics offenses.
    The questions also raise the issue of Sweden's extradition of its 
own nationals. Over time, we have come to support strongly the practice 
of a country extraditing its own nationals, and we now take every 
opportunity to encourage this change in practice by making it one of 
our highest priorities when negotiating new or updated extradition 
treaty relationships. We, therefore, strongly encourage Sweden to 
extradite its nationals. Sweden, however, is not obligated to do so 
under the existing extradition treaty. As a result, when it declines to 
extradite its nationals, Sweden is not only acting according to Swedish 
law, which bars extradition of its nationals, but completely consistent 
with its treaty obligations to the United States.
    In connection with mutual assistance requests, during this same 
time period, we have assisted Sweden in a number of fraud, computer 
crime, murder (3 cases), official corruption, and narcotics cases, as 
well as in a tax case. We have denied two of their requests, however, 
because they sought tax returns. Without the treaty, we cannot give tax 
returns to Sweden.
    In recent years, Sweden has acted promptly and professionally to 
assist us in cases involving pornography, weapons and explosives, 
computer hacking (including an attack on U.S. government computers), 
tax, and fraud cases. The proposed MLAT would strengthen the legal 
foundation for such assistance and obligate Sweden to maintain this 
close and cooperative relationship on all criminal cases within the 
scope of the treaty.
    With respect to child abduction matters, a number of the questions 
address Sweden's compliance with the Hague Convention and related 
issues. The Department of State continues to work with Sweden and other 
countries to improve their compliance with the Hague Convention. 
Notwithstanding certain long-standing cases that continue to be of 
concern to us, we believe that Sweden's performance under the Hague 
Convention has steadily improved, as reflected in our past annual 
compliance reports. Sweden's current performance exceeds or is similar 
to that of other European Hague Convention countries, and it is similar 
to the performance of the United States vis a vis Sweden.
    Recently, for example, we worked closely with the Swedish Central 
Authority in an abduction case in which the Swedish Central Authority 
responded promptly to the left-behind parent's application for return, 
in accordance with Hague procedures. We believe the Swedish judiciary 
decided the case consistently with the Hague Convention, and the child 
was ordered returned to the United States. The return order was 
enforced, despite a lack of cooperation by the taking parent. The child 
returned to the United States in the spring of this year.
    Our Hague Convention dialogue with Sweden is ongoing, and we have 
raised concerns we have had about their compliance directly with them. 
We will certainly continue to do so.
Conclusion
    The U.S. Government took each action in connection with the 
proposed MLAT (i.e., the decisions to negotiate, sign, and submit this 
treaty to the Senate for its advice and consent to ratification) after 
considering the benefits to U.S. law enforcement interests and the 
American people of improving and solidifying our law enforcement 
relationship with Sweden. Through this treaty, the U.S. law enforcement 
community will be able to obtain crucial evidence to assist in the 
investigation and prosecution of criminals in the courts of the United 
States. We, therefore, ask that the Senate give early advice and 
consent to ratification of this treaty.
                                 ______
                                 

Responses From the Department of State to Additional Questions for the 
               Record Submitted by Senator Barbara Boxer

                          extradition treaties
    Question. Does the dual criminality provision in the treaties 
before us today ensure that child abduction is a covered crime? Is the 
U.S. making an effort to update aged extradition treaties with those 
nations where child abduction problems are most common?

    Answer. We expect that parental child abduction will be an 
extraditable offense under these two new treaties. Extradition is 
required under the new treaties with Lithuania and Peru if the offense 
is punishable by a period of more than one year or by a more severe 
penalty. (Lithuania Treaty, Art. 2(1); Peru Treaty, Art. II(1)). 
Parental child abduction is punishable in the United States by a period 
of more than one year. Because we understand that the conduct 
constituting parental child abduction is also punishable in both 
Lithuania and Peru by more than one year, we expect it will be an 
extraditable offense under both of these treaties.
    With respect to other U.S. extradition treaties, all of the U.S. 
Government's extradition treaties agreed upon since 1980 are dual 
criminality treaties similar to the Lithuania and Peru treaties. 
Parental child abduction is thus an extraditable offense under these 
treaties if our treaty partner has also criminalized the conduct. While 
many countries still treat parental child abduction solely as a civil 
and family law matter, an increasing number are providing for serious 
criminal penalties.
    As noted in the question, our older extradition treaties (generally 
those signed before 1980) are most typically ``list'' treaties that did 
not include ``parental child abduction'' or ``parental kidnapping'' or 
a similar phrase or concept among the list of extraditable offenses. 
This is because at the time the treaties were negotiated parental child 
abduction was not a criminal offense, including in the United States. 
Normally, the interpretation of ``list'' treaties would simply evolve 
to reflect the evolution of new aspects of crimes that are identified 
in the list treaties. In this instance, however, the U.S. view that 
extradition list treaties did not include parental child abduction had 
been widely disseminated, including by publication in the Federal 
Register of the United States in 1976.
    To remedy this situation, the State and Justice Departments brought 
this issue to the attention of Congress in 1997. These consultations 
led to Public Law 105-323 (The Extradition Treaties Interpretation Act 
of 1998), which addresses the matter by clarifying that ``kidnapping'' 
in extradition list treaties may include parental kidnapping, thus 
reflecting the major changes that have occurred in this area of 
criminal law in the last 20 years. With this clarification, the 
Executive Branch is now in a position to make and act upon the full 
range of possible extradition requests dealing with parental kidnapping 
under list treaties that include the word ``kidnapping'' on such lists. 
This will help achieve the goal of enhancing international law 
enforcement in this area. The United States would, however, adopt this 
broader interpretation only once it has confirmed with respect to a 
given treaty that this would be a shared understanding of the parties 
regarding the interpretation of the treaty in question. In this 
respect, as other countries criminalize parental child abduction, we 
will have an increasing number of extradition treaty relationships that 
cover this offense.
    After Public Law 105-323 was enacted, this change in the U.S. 
practice of interpreting extradition list treaties was announced in the 
Federal Register on January 25, 1999 (Vol. 64, No. 15, pages 3735-36). 
As Senator Boxer's question reflects, however, the relevant passage 
discussing extradition list treaties in the State Department's web site 
and in the State Department's brochure on parental child abduction 
similarly needs to be updated to reflect this change in practice. We 
will change the relevant sentences in the web site and in future 
editions of the print version of the brochure. We appreciate the 
Committee's bringing this issue to our attention.

    Question. If confidence among the Peruvian public in the judiciary 
is low, why should the United States have confidence that a suspect 
extradited by the United States to Peru will receive a fair trial? 
Doesn't Peru's appeal of the Commission's decision to the Inter-
American Court show an unwillingness to acknowledge problems with its 
judicial system?

    Answer. Since the downfall of the Fujimori government in November 
2000, Peru has made many strides to correct deficiencies in its 
judicial system. At the end of 2000, Peru abolished the executive 
committees through which former president Fujimori had exercised 
control over the judiciary, restored the powers of the National 
Magistrates Council (CNM) to evaluate judges and prosecutors, and 
created transitory councils to remove corrupt judges. In late 2000, the 
Peruvian government established a new Pardons Commission to examine the 
cases of persons imprisoned for terrorism under the Fujimori 
government. As of October 2001, 90 persons had been released from 
prison. Along with over 600 persons pardoned between 1996 and 2000, a 
total of over 700 persons were pardoned and released after being 
accused unjustly of terrorism. In August 2001, President Toledo nearly 
doubled the salaries of tenured judges and prosecutors to make working 
in the judiciary more attractive and to reduce corruption incentives. 
Thus, while much work remains to be done, Peru is taking active steps 
to reform its judicial system.
    Under U.S. extradition law and practice, once a fugitive has been 
found extraditable by a U.S. court, the Secretary of State (or Deputy 
Secretary) must review the case and issue a surrender warrant before 
that person could be extradited to Peru or any other country with which 
we have an extradition treaty. As part of that review and decision-
making process, the Secretary takes into account any information 
available that may affect the defendant's ability to receive a fair 
trial.
    With respect to the case of Lori Berenson, Peru's Supreme Court in 
2001, in an unprecedented action, nullified Ms. Berenson's original 
conviction by a military court and ordered a civilian re-trial. During 
her civilian trial, Ms. Berenson was allowed to confront the witnesses 
against her and present evidence in her defense. The civilian court 
found Ms. Berenson guilty of terrorist collaboration. She appealed her 
sentence, which was upheld by the Peruvian Supreme Court. The case is 
now in the Inter-American Human Rights system. The Inter-American 
Commission on Human Rights, based here in Washington, issued non-
binding recommendations finding Ms. Berenson had not received due 
process. As a party to the American Convention on Human Rights, Peru 
exercised its right under Article 51 to ask the Inter-American Court of 
Human Rights, in San Jose, Costa Rica, to review the case. The 
decisions of the Court are legally binding, and we have every 
expectation that Peru will comply with whatever decision the Court 
renders.
    Meanwhile, U.S. consular officials continue to monitor the 
situation closely and visit Ms. Berenson regularly. They will continue 
to make every effort to ensure that the Government of Peru provides her 
with humane living conditions and appropriate medical care while she is 
in confinement.

    Question. On October 2, 2001 Mexico's Supreme Court of Justice 
ruled that in order for any extradition to proceed, the Requesting 
State must provide assurances that life imprisonment will not be 
imposed. The ruling has the potential to impact all extradition cases 
between the U.S. and Mexico-and this severely impacts California. Is 
this a problem that is limited to just Mexico or the beginning of a 
larger trend?

    Answer. A worldwide trend does not appear to exist with respect to 
seeking life imprisonment assurances. In addition to Mexico, a handful 
of other countries have raised life imprisonment assurances issues 
(e.g., Colombia, where extradition takes place under its national 
extradition law), but as to those other countries, there has not been a 
significant adverse effect on our ability to extradite fugitives. This 
is not the case with Mexico, where we have experienced a severe impact 
on our ability to secure the surrender of our most serious criminal 
offenders.
    The Department of Justice has corresponded with Los Angeles 
District Attorney Steve Cooley concerning his Mexican extradition 
cases, as well. We continue to work closely with D.A. Cooley's office, 
as well as with federal and state prosecutors throughout the country, 
in an attempt to provide Mexico with assurances that are consistent 
with U.S. law and serve the ends of justice. In addition, we continue 
to raise the assurances issue with the Government of Mexico. In fact, 
Secretary Powell explicitly raised the issue in his meeting on 
September 30, 2002 with Mexican Foreign Minister Jorge Castaneda. We 
will also raise the issue again at a meeting of senior U.S. and Mexican 
law enforcement officials at the end of October.

    Question. Are you aware of any significant outstanding cases 
pending between the United States and either Lithuania or Peru which 
would be impacted by the approval of either of these extradition 
treaties?

    Answer. The improved terms and procedures of the two treaties will 
help in all future cases in which the United States is seeking the 
return of fugitives from Lithuania and Peru. In coming years, we can 
anticipate requests to and from both countries on a broad range of 
extradition cases, including narcotics and violent crime cases.
    According to Article 22, the new Lithuania Extradition Treaty will 
apply to any extradition proceedings in which the request for 
extradition was received by the Requested State but not submitted to 
its courts before the entry into force of the treaty. Also, Articles 16 
and 17 of the treaty will be applicable to any pending extradition 
requests even if they have been submitted to the courts of the 
Requested State. As of this date, there are five Lithuanian cases 
pending with the United States that potentially could be affected. The 
new Peru Extradition Treaty, per Article XVIII, will apply to pending 
extradition requests for which a final decision has not yet been 
rendered on the date the treaty enters into force. As of this date, 
there is one Peruvian case pending before the U.S. courts and one U.S. 
request pending in Peru that could be affected by this provision. 
Whether the handful of cases pending with Lithuania and Peru will come 
within the terms of the new extradition treaties will depend on when 
the treaties actually enter into force and the timing of the final 
decisions on pending extradition requests.
                mutual legal assistance treaties (mlats)
    Question. Why should the United States enter into an MLAT 
relationship with Sweden when it is not living up to its commitments 
under other treaties?

    Answer. The United States should enter into this MLAT relationship 
because it is in the United States' interest to do so. Moreover, Sweden 
is in fact generally living up to its commitments under other treaties.
    It is the Administration's position that the MLAT is a valuable law 
enforcement tool, and that it should be approved on its merits as such. 
The experience of this last year has only underscored the international 
character of the crimes most threatening to our citizens, and thus, our 
responsibility to provide U.S. prosecutors and investigators the means 
to secure evidence from abroad.
    The proposed MLAT with Sweden will enhance bilateral cooperation in 
law enforcement matters. The Administration plans to use this treaty to 
obtain assistance in connection with our efforts to fight terrorism, 
narcotics trafficking, organized crime, violent crime, money 
laundering, and terrorist financing and other crimes where Sweden has 
evidence that could assist us in our criminal investigations and 
prosecutions.
    The United States and Sweden already cooperate on a broad range of 
law enforcement issues, and we have received assistance from Sweden on 
judicial assistance requests on a case-by-case basis. However, formal 
requests may require the burdensome and time-consuming process of 
letters rogatory, and there is no binding obligation on Sweden's part 
to assist the United States. The proposed MLAT will require Sweden to 
provide us assistance and only permits Sweden to decline to assist us 
in very specific instances. The treaty also designates a central 
authority to facilitate action under such requests, thereby improving 
the ability of both countries to obtain the necessary judicial 
assistance to prosecute and investigate crimes.
    Moreover, although no relationship with any country is without its 
disagreements, we consider Sweden a good treaty partner that generally 
complies with its treaty obligations. In fact, the United States and 
Sweden have many bilateral treaties and agreements in force. According 
to the January 1, 2002 Treaties in Force, we currently have in force 
over 45 bilateral treaties or agreements with Sweden on a wide variety 
of topics including with respect to atomic energy, aviation, customs, 
defense, environmental cooperation, scientific cooperation, social 
security, space cooperation and taxation--the most recent agreement 
being a defense agreement that entered into force on December 20, 1999, 
and the earliest an agreement with respect to mapping entered into 
force on April 1, 1885.
    In the area of law enforcement in particular, Sweden has a proven 
track record in cooperating with us in connection with our existing law 
enforcement treaty--the Extradition Treaty between the United States 
and Sweden--has been in force since 1963. In the last two years, Sweden 
has extradited three defendants to the United States (one wanted for 
rape, one for fraud, and the other for narcotics offenses). All were 
provisionally arrested promptly at our request. In the same period, we 
have extradited two fugitives to Sweden (one was an accused murderer, 
the other was wanted for parental child kidnapping and requested that 
she be extradited after she was arrested). We have provisionally 
arrested another fugitive from Sweden for serious narcotics offenses.
    To the extent the question is directed at Sweden's compliance under 
the Hague Convention, the problem of international parental child 
abduction, and of compliance with the Hague Convention by treaty 
partners including Sweden, are matters of serious concern to the State 
and Justice Departments.
    Assisting the victims of international parental child abduction has 
long been a priority for the Department of State and is an important 
activity of State's Bureau of Consular Affairs. In 1994, the Bureau 
created the Office of Children's Issues. The Abduction Unit of this 
office now employs 17 officers and staff devoted exclusively to working 
with parents to resolve the cases of their abducted children. The 
Office currently handles approximately 1,100 international parental 
child abduction cases yearly, including abductions to and from the 
United States. We have active child abduction cases in many countries 
and in every region of the world.
    We have designated a specific point of contact at each of our 
Embassies and Consulates worldwide to facilitate our work on abduction 
cases. Additionally, in 1998 the Secretary of State and Attorney 
General established an inter-agency policy group to improve the federal 
response to this issue. This policy group created a specific action 
plan and established an inter-agency working group, chaired by the 
Director of the Office of Children's Issues to implement this plan.
    In connection with Sweden in particular, as discussed more fully in 
our response to the September 16 questions, while certain long-standing 
cases remain troubling, we believe Sweden's record under the Hague 
Convention--a convention governing the civil aspects of international 
parental abduction--has been steadily improving. The positive trend has 
been noted in our compliance reports to Congress and has been 
reinforced by recent experience involving Sweden. Notwithstanding these 
encouraging developments, we will continue to seek further improvement 
with Sweden, as with other countries, because compliance with the Hague 
Convention is a serious matter in its own right. However, these 
concerns need not and should not be linked to questions relating to the 
MLAT. The MLAT is a law enforcement tool.
    The wisdom of the Foreign Relations Committee in approving dozens 
of similar MLATs over the years has been well illustrated by the 
numerous cases--now including investigations related to the attacks of 
September 11th--in which the Department of Justice has been able to use 
MLATs to obtain evidence critical to the investigation and prosecution 
of serious crimes against the United States and its citizens. 
Accordingly, we urge the Committee to recommend advice and consent to 
ratification of the MLAT with Sweden.

    Question. How will ratification of these and future mutual legal 
assistance treaties help in fighting the war on terrorism? Are there 
outstanding cases in which quick passage of these 5 treaties is 
necessary?

    Answer. The ratification and effective implementation of the five 
MLATs pending before the Committee, as well as such action on future 
MLATs, will increase the number of countries with which the United 
States Government can rely on the existence of a binding legal 
obligation to provide assistance in support of our criminal 
investigations and prosecutions. Since September 11, 2001, our existing 
MLATs have enabled us to make requests on behalf of federal terrorism 
prosecutors to approximately 17 foreign countries, in connection with a 
variety of investigations and cases, including Zacarias Moussaoui and 
Richard Reid. These requests have sought a broad spectrum of 
assistance, from physical evidence to documents to witness statements. 
Likewise, our MLATs have enabled us to assist a number of foreign 
countries by providing evidence for use in their terrorism 
investigations and prosecutions.
    In addition to the types of assistance noted above, MLATs provide 
access to bank and other corporate records that could support terrorist 
financing cases, telephone and cell phone toll and subscriber 
information to help in identifying suspected terrorists, and enable us 
to effect searches and seizures, including providing a framework for 
cooperation in the tracing, seizure and forfeiture of criminally-
derived assets. The terms of these treaties contemplate procedures for 
ensuring the admissibility of foreign evidence in the courts of the 
requesting state, as well as for asking that the request or the 
evidence be kept confidential. All of the benefits conferred by MLATs 
are available for assistance in terrorism cases, as well as in the full 
range of investigations and prosecutions of other forms of serious 
criminal activity.
    While we are not aware of any pending cases in which quick entry 
into force of these five treaties is necessary, we want to be in a 
position to use the treaties whenever such need arises in the future.

    Question. In general terms, please describe the volume of requests 
that normally results following entry into force of an MLAT. Do the 
Departments of State and Justice have adequate resources to implement 
requests in a timely manner?

    Answer. Because each treaty relationship is country-specific, it is 
difficult to generalize in terms of the volume of requests that follow 
the entry into force of an MLAT. At this point, we can anticipate that 
we may receive a number of requests from U.S. prosecutors when the 
MLATs with Belize and Liechtenstein enter into force, as those treaties 
will allow us to request assistance in criminal tax matters--an area of 
heightened concern with respect to those two jurisdictions. We may also 
see an initial increase in requests for bank records from 
Liechtenstein, because the MLAT will pierce bank secrecy laws there.
    As the central authority under U.S. MLATs, the Department of 
Justice is responsible for implementing these treaties. The increasing 
number of MLATs in recent years has significantly increased the 
Department's volume of casework, and the Department of Justice has not 
always been in a position to handle requests as expeditiously as it 
would like. In the fiscal year 2002 budget, Congress gave the 
Department of Justice an allocation for additional positions which it 
hopes will assist in handling MLAT requests (as well as extradition 
requests) more quickly and efficiently.
    The State Department is fully committed to supporting the Justice 
Department whenever necessary in the implementation of MLATs. If 
additional resources are needed beyond our current staffing and 
appropriations, the Department of State will seek those resources 
through the legislative process.
                  stolen vehicle treaty with honduras
    Question. What is the current state of law enforcement cooperation, 
in general, with Honduras?

    Answer. Our law enforcement cooperation relationship with Honduras 
is functional, and we hope it becomes more extensive in the future.
    The extradition treaty between the United States and Honduras was 
signed in 1909, entered into force in 1912, and was modified by a 
supplementary convention of 1927. Although Honduras' recent record with 
respect to extradition under the treaty leaves room for improvement, 
the country has responded to U.S. requests by deporting fugitives to 
the United States where possible. We have as a long-term goal the 
negotiation of a modern extradition treaty with that country. Honduras 
does not have a MLAT relationship with the United States, but 
cooperates with U.S. law enforcement agencies on law enforcement 
matters in the absence of an MLAT.

    Question. What has been the experience to date under the stolen 
vehicle treaties which entered into force since the Senate approved 
several such treaties in 2000.

    Answer. In 2000, the Senate gave its advice and consent to 
ratification of five stolen vehicle treaties. Three of the five 
treaties have entered into force: the Dominican Republic treaty 
(entered into force August 3, 2001), the Panama treaty (entered into 
force September 13, 2001), and the Belize treaty (entered into force 
August 16, 2002). The Costa Rica and Guatemala treaties are in the 
final stages of approval and entry into force, and we hope to bring 
them into force soon.
    The Belize treaty only came into force on August 16, and we have 
not yet had any experience under that treaty. We have begun making 
requests for the return of vehicles from Panama and Belize. We have 
thus far only made one request to Panama and are awaiting action on 
that request. Our Embassy in the Dominican Republic has made 
approximately 10 requests for the return of U.S. stolen vehicles. 
Dominican officials have already made six of these vehicles available 
for return, and the Embassy expects the remaining four vehicles to be 
available for return next month.

                              ----------                              


                 Additional Submissions for the Record

                                      Steve Cooley,
                      Los Angeles County District Attorney,
                                     Los Angeles, CA, June 6, 2002.

The Honorable Barbara Boxer
United States Senate,
112 Hart Senate Office Building,
Washington, DC.

    Dear Senator Boxer:

    As the District Attorney of Los Angeles County, consistent with the 
spirit of the Extradition Treaty and the Mutual Legal Assistance 
Treaty, I am requesting your immediate assistance in urging the federal 
government to obtain cooperation from the Republic of Mexico to 
extradite Mexican nationals in exceptional circumstances.
    Historically, the Mexican government refused to extradite Mexican 
nationals who committed crimes in the United States and fled to Mexico 
unless there were assurances that the death penalty would not be 
sought. Now, as a result of a recent decision by the Mexican Supreme 
Court, the Mexican government refuses to extradite Mexican nationals 
charged with serious offenses if the offense carries a potential 
``life'' sentence. In California, all murders and certain specified 
serious crimes call for indeterminate life sentences. Such sentences 
cannot be converted to ``determinate sentences'' by either a prosecutor 
or a judge. The actions by the Mexican government have greater impact 
on California than many other states because of California's sentencing 
scheme and its proximity to Mexico.
    California prosecutors are faced with four unsatisfactory options:

          1) Refuse to seek extradition and allow murderers, rapists, 
        child molesters, and other very serious criminals to escape 
        justice by fleeing to Mexico.

          2) Seek extradition and give the requested assurances 
        guaranteeing that a person charged with a crime carrying a 
        potential life sentence would be extradited on a reduced or 
        lesser charge for which a determinate sentence would be 
        imposed.

          3) Seek extradition, refuse assurances, and have the matter 
        convert to an Article IV prosecution under the penal laws of 
        Mexico. Such a prosecution is subject to the rules and 
        regulations of the Mexican legal system with no guarantee of 
        aggressive apprehension efforts, actual prosecution, or an 
        adequate sentence. If an Article IV is accomplished, jeopardy 
        attaches barring future domestic prosecution.

          4) Seek prosecution under Article IV as described above in 
        3).

    Last March, I met with Attorney General John Ashcroft and Assistant 
Attorney General Michael Chertoff in Washington, D.C. and urged them to 
address this issue. Recently, the Attorneys General from all 50 states 
and the territories of the District of Columbia and the Virgin Islands 
wrote to Attorney General Ashcroft and Secretary of State Colin Powell 
demanding action in this area.
    To illustrate the urgency of this matter, I have attached histories 
of several serious cases now pending in Los Angeles County where a 
grave miscarriage of justice has occurred or will inevitably occur 
without immediate action. Federal and state governments should possess 
the absolute sovereign right to prosecute and punish according to their 
laws for cases occurring in their jurisdictions. No foreign nation 
should be allowed to dictate the terms of our criminal justice system 
and prevent legitimate and appropriate prosecutions.
    I request that you immediately cause congressional committees and 
caucuses to conduct hearings to address this issue, an issue that only 
the federal government can resolve.
            Very truly yours,
                           Steve Cooley, District Attorney.

    [Enclosure.]

                Case Histories--Extradition From Mexico

             los angeles county district attorney's office
People v. Armando Garcia (Pending Filing/Los Angeles County)
    On April 29, 2002, 33-year-old Los Angeles County Deputy Sheriff 
David March was shot and killed, execution-style, during a routine 
traffic stop in Irwindale, California. Suspect Armando Garcia, a 
Mexican national, is believed to have fled to Mexico. He previously had 
been charged in an unrelated case involving two counts of attempted 
murder. A warrant for his arrest has been issued on that case. If 
extradition is sought solely on the filed case, Article 17 of the 
Extradition Treaty would prevent extradition on the attempted murder 
case and on any future prosecution in the United States for the murder 
of Deputy March. The Mexican government can waive Article 17. However, 
the American Consulate in Mexico City and the Office of International 
Affairs have advised that no waiver will be granted without assurances 
that the death penalty or a life sentence will not be sought in either 
case. A filing of murder charges for the slaying of Deputy March and a 
request for extradition on both cases concurrently would likely result 
in the same refusal of the Mexican government to extradite Garcia. In 
order to extradite Garcia and prosecute him in California for the 
murder of Deputy March, under the current Mexican Supreme Court ruling, 
this office would be required to charge a lesser offense such as 
manslaughter or assault with a deadly weapon to avoid a potential life 
sentence. Even with such assurances, it is unclear whether or not the 
Mexican government would extradite Garcia since recent court rulings 
have indicated that only a judge can give sufficient assurances--a 
legal impossibility under California's judicial system.
People v. Daniel Perez (Case No. VA035691/Los Angeles County & San 
        Bernardino County)
    In August of 1999, Defendant Daniel Perez was convicted in absentia 
by a jury for the crimes of attempted first degree murder, use of a 
firearm, spousal battery, kidnapping, false imprisonment and stalking 
his estranged wife. The defendant and the 21-year-old victim, Anabella 
Vara, were separated. They met at a pizza place where the defendant 
kidnapped her at gunpoint. After terrorizing her for two hours, 
Anabella finally convinced Perez that she would return home with him. 
He drove Anabella to her car and she attempted to drive away from him. 
The defendant chased the victim in his car, while she was in her car, 
ramming her vehicle and forcing her to run red lights through the 
streets of Southgate, California. Ultimately, Anabella was caught in 
traffic and had to abandon her car. The defendant caught her at a gas 
station and shot her in the head. Miraculously, she survived. During 
the trial and while out on bail, the defendant drove to the victim's 
father's home in Fontana, California and in front of his children, 
Anabella's siblings, the defendant shot and killed Anabella's father. 
The victim's father was a key witness against Perez. The defendant, a 
Mexican national, has allegedly fled to Mexico. He was sentenced in 
absentia on the attempted murder case to a term of 33 years to life, 
plus an additional life term. The San Bernardino County District 
Attorney's Office has charged Perez with the murder of the victim's 
father and the special circumstance of killing a witness. The charges 
carry a potential punishment of life in prison without the possibility 
of parole or death. Extradition solely on the sentenced case and later 
local prosecution of the murder requires an Article 17 waiver and 
accompanying assurances to satisfy the Mexican government--a legal 
impossibility under the current law. Extradition for prosecution on 
both cases concurrently would have the same result.
People v. Alvaro Luna Jara (Case No. BA174264/Los Angeles County)
    Defendant Jara is charged with the special circumstances murder of 
a 12-year-old boy and the attempted murder of three others. On August 
29, 1998, at approximately 7:15 p.m., the deceased victim was playing 
with several other children in front of their apartment adjacent to the 
children were three members of a local street gang. As the defendant 
was driving by, he and the three gang members exchanged hand gestures. 
The defendant extended his ann out of the car window and fired three 
rounds into the crowd killing 12-year-old Steven Morales with a gunshot 
to his head. The defendant, who is not a Mexican national, fled to 
Mexico. The Mexican government refused to deport the defendant because 
his parents are Mexican nationals. Formal extradition proceedings are 
pending, but assurances will have to be given to the Mexican 
government.
People v. Casillas (Case No. BA188561/Los Angeles County)
    On June 8, 1999, Defendant Casillas, a Mexican national, shot and 
killed his 17-year-old ex-girlfriend and her 15-year-old female cousin 
as they walked to Lynwood High School in Lynwood, California. Olivia 
Zavala Muniga, the defendant's ex-girlfriend, was shot multiple times 
in the back with a 9 millimeter handgun. Her young cousin, Jessica 
Yvette Zavala, was shot once in the back. Olivia had recently broken 
off her relationship with Casillas and he had been threatening her. On 
January 8, 2001, the Los Angeles County District Attorney agreed to 
waive the death penalty and requested extradition of the defendant. On 
September 5, 2001, the defendant was arrested in Mexico on a 
Provisional Arrest Warrant. On October 2, 2001, the Mexican Supreme 
Court ruled in an unrelated case that a life sentence was ``cruel and 
unusual'' punishment. After refusing to give assurances that a life 
sentence would not be sought, the Los Angeles County District 
Attorney's Office was notified that the extradition request had been 
converted to anArticle IV prosecution in Mexico. The trial is in 
progress in Mexico and jeopardy has attached barring any future 
prosecution in California.
People v. Rivera (Case No. A967075/Los Angeles County)
    On May 7, 1988, Father Nicholas Aguilar Rivera, a Catholic priest, 
was charged with 19 counts of child molestation. The day after he was 
charged, Father Rivera fled to Mexico. The case was submitted to the 
Mexican government for an Article IV prosecution. Following a series of 
dilatory tactics, Mexican prosecutors failed to submit the case for 
prosecution until 1995. The Mexican court dismissed the matter as 
untimely and entered an acquittal. Now, both countries are barred from 
further prosecution.
People v. Evelio Rivera Zacarias (Case No. BA190892/Los Angeles County)
    Defendant Zacarias is charged with the special circumstances murder 
of four members of a Rosemead, California family and the attempted 
murder, kidnapping, sodomy and rape of a family member of the 
defendant's ex-girlfriend's new boyfriend. The defendant stormed into 
the family's home and opened fire in a fit of jealousy. He fled to 
Mexico. The Los Angeles County District Attorney agreed to waive the 
death penalty and requested extradition on July 11, 2001. An unlawfull 
flight warrant was issued on August 15, 2001, however, the suspect has 
not been arrested. If he is arrested in Mexico, the Mexican government 
will require assurances that a life or death sentence will not be 
sought.
                                 ______
                                 
                                       907 Dalebrook Drive,
                                Alexandria, VA, September 19, 2002.

The Honorable Barbara Boxer, Chairman,
Subcommittee on International Operations and Terrorism,
Committee on Foreign Relations,
United States Senate,
Washington, DC.

Re: Request for Denial of Senate Advice and Consent to Ratification of 
        the Swedish Mutual Legal Assistance Treaty (Swedish MLAT)

    Dear Madame Chairman:

    Thank you for the opportunity to submit a statement in opposition 
to the Swedish MLAT. This statement is made solely in my personal 
capacity as a private citizen and as the parent of an internationally 
abducted American child (Amanda Kristina Johnson) who remains a hostage 
in Sweden. Many of my points are expressed in far greater detail (and 
documented) in my testimony before the full Committee on Foreign 
Relations (October 1, 1998) and the full House International Relations 
Committee (October 14, 1999), as well as in my article in the Fall 2000 
edition of the New York University Journal of International Law and 
Politics that has been provided to your staff. I hope that you will 
permit me to supplement this statement if any information supplied to 
you by the government witnesses or their agencies is incomplete, 
inaccurate, intentionally misleading, or false.
    As your constituent and a witness in the previous hearings 
mentioned above (Paul Marinkovich of Simi Valley) could explain far 
more effectively if given the opportunity, both the Swedish MLAT and 
the overall Swedish law enforcement system are deeply flawed, and the 
proposed treaty could thus be rejected outright or tabled indefinitely 
for reasons unrelated to the direct, institutionalized support by the 
Swedish Government (and its legal and social welfare systems) for the 
abduction and permanent retention in Sweden of American children. The 
Swedish MLAT could certainly be denied advice and consent because it is 
in fact a proposed law enforcement treaty with a country that provides 
a safe haven for criminals, contrary to the U.S. Government's no safe 
haven policy, in that Sweden will not extradite Swedish nationals or 
effectively prosecute and punish them for crimes subject to U.S. 
jurisdiction, and has even denied U.S. extradition requests for 
American citizens.
    But, as Congress recognized in its concurrent resolution in 2000 
(H.R. Con. Res. 293), Sweden is in fact one of the worst offenders 
concerning the abduction and retention abroad of American (and other) 
children, including some of your constituents (e.g., the two children 
of Greg O'Donoghue of Burbank, the four children of Greg Benson of San 
Diego). No thanks to the Swedish Government or its legal system that 
cannot enforce civil court orders, some sort of arrangement for access 
may be worked out privately (as may have happened in the Benson case), 
or the child may be rescued from a third country (as with the child of 
your constituent Paul Marinkovich, who asserts that Sweden deserves no 
credit in the case). However, Sweden's citizens who abduct and retain 
American children generally succeed completely and could not do so 
without the extensive direct and indirect support of the Swedish 
Government, including the Swedish law enforcement system that would be 
embraced by the Swedish MLAT.
    It has been a privilege for me to serve my country, for more than 
33 years of active and reserve Marine Corps duty (retiring as a colonel 
in 1999) and for more than 23 years with the Department of State 
(primarily as an attorney, including extensive experience concerning 
law enforcement treaties). I have no complaints about the manner in 
which I have been treated, and in fact owe the Marine Corps far more in 
many ways than I can ever repay. As you undoubtedly know, one point 
``emphasized'' from the outset at Quantico and the recruit depots is 
that Marines never leave anyone behind, including the bodies of our 
dead.
    Not surprisingly, therefore, I have major complaints about the 
manner in which the Executive Branch, despite the absence of any 
possible justification or excuse, has badly let down and then abandoned 
thousands of our youngest citizens who have been abducted and retained 
abroad, and are, of course, victims of Federal and state felonies. This 
abandonment includes the State Department practice of ``writing off'' 
American children by asserting that an American child's case is 
``resolved'' (for purposes of the annual Hague child abduction 
convention report to Congress) as soon as the foreign country concerned 
definitively refuses to return the child. The many years of 
Congressional efforts to help abducted American children and their 
left-behind parents have, in varying degrees, been opposed, weakened, 
undermined, ignored, or violated.
    As all of us were forcefully reminded last week, there is probably 
no greater loss than the loss of a child. We all know that there are 
many ways to lose a child, none of them acceptable. It is ironic that 
the Swedish MLAT may be touted as important in the war against 
terrorism. Under any circumstances, child abduction constitutes 
unending terrorism and torture for its victims. Governmental support 
for, and involvement in, such terrorism is particularly reprehensible. 
The Swedish Government is engaged in such support and involvement, and 
a new law enforcement treaty with such a regime should not even be 
considered until Sweden extradites its own citizens for parental child 
abduction and other offenses, consistently returns children under the 
Hague Convention (as does the United States at a 90-100 percent rate 
with Sweden), ensures substantial enforceable access and visitation in 
the United States for children not returned under the Hague Convention, 
ceases the payment of legal fees to its abductors and the financing of 
abusive appellate litigation in U.S. courts when it has no intention of 
respecting the results if adverse to the Swedish citizen, and carries 
out various other reforms.
    Whatever token returns of American children from Sweden or 
``improvements'' may be claimed, there has been no significant change 
in the Swedish Government Child Abduction Support System described in 
my previous testimony and NYU article. That governmental system is the 
most sophisticated and well-financed in the world, and guarantees 
successful felonies against American children and their left-behind 
parents. No one was fooled by the sudden return of the daughter of Ian 
McAnich of Dallas in May 2000. After two years of claims by Swedish law 
enforcement that they were unable to find the abducting Swedish mother 
and the child, both were magically located within 48 hours of the House 
unanimously passing the concurrent resolution, while at the same time a 
Swedish damage control team was in Washington experiencing very 
unsuccessful meetings with Congress and the media. The relevance to the 
MLAT, as in the Marinkovich case, is that Swedish law enforcement was 
either corrupt or incompetent in the McAnich case, combined with the 
usual Swedish sexism and ultra-nationalism in these cases. None of 
these ``qualities'' are acceptable in Western European law enforcement 
``partners'' of the United States.
    According to the aforementioned Swedish team in May 2000, Sweden 
has more parental child abduction cases with the United States than 
with the rest of the world combined. Most of those American children, 
who are the victims of Federal and state felonies, remain in Sweden and 
are totally lost to their American parents because the Swedish legal 
system has nothing comparable to contempt of court to enforce access or 
visitation even under a Swedish custody order. The process of losing an 
American child that is begun by a Swedish citizen committing a felony 
with impunity against American citizens due to the support of the 
Swedish Government is, of course, completed within the child by the 
very aptly-named Stockholm Syndrome, followed at some point by the 
Parental Alienation Syndrome. In terms of experiencing the latter, you 
may be familiar with the testimony before this Committee (and the 
HIRC), as well as a book, by Lady Catherine Meyer, wife of the British 
ambassador in Washington.
    Even if the Justice Department would enforce (and make extradition 
requests under) the International Parental Kidnapping Crimes Act of 
1993 (18 USC 1204), which it generally refuses to do, the Swedish MLAT 
would provide no meaningful assistance in cases involving Swedish 
abductors, and almost certainly not in cases involving American 
abductors in Sweden (as shown by the Marinkovich case).
    To avoid Congressional, media, or other scrutiny, this proposed 
treaty was very quietly signed in Stockholm late last year, more than 
six years after its negotiation. Those who were fearful that the Senate 
would rightly have denied advice and consent to this treaty before 9/11 
apparently saw that tragedy as an opportunity for anything with a ``law 
enforcement'' or ``anti-terrorism'' label. In the advice and consent 
process for the Swedish MLAT, the Senate also has an opportunity: to 
show that there is in fact a lower limit beneath which the United 
States should not go even if an effort is made to cloak something with 
one of those labels. The ``quiet'' approach by the State Department 
concerning the Swedish MLAT has continued in connection with this 
hearing. And there is something to hide: the fact that the Swedish MLAT 
is a proposed law enforcement treaty with a country that is directly 
involved in facilitating, financing, rewarding, and otherwise 
supporting the commission of Federal and state felonies by its citizens 
against American citizens through a legal and social welfare system 
that is utterly incompatible with the status of U.S. law enforcement 
treaty partner.
    In addition, the Swedish MLAT should be rejected outright or not 
acted upon by the Senate because:

  <bullet> It is unlikely that either the Secretary of State (in 
        authorizing signature and forwarding of the treaty to the 
        Senate) or the Senate itself has been provided with complete 
        and accurate information on this proposed treaty, which is not 
        in the best interests of the United States,

  <bullet> It is unlikely that any proponents of the Swedish MLAT have 
        more than the most rudimentary knowledge of the Swedish legal 
        system in general and its criminal ``justice'' system in 
        particular, both of which are extraordinarily primitive by U.S. 
        standards and lack some of the most minimal standards of due 
        process, including the absence of hearsay and other rules of 
        evidence, no right to confront witnesses, and no authentication 
        of documentary evidence, all of which is combined with ultra-
        nationalist bias in Swedish courts, and

  <bullet> MLATs lack basic safeguards to protect the rights of 
        American citizens and, like other law enforcement treaties, 
        depend on an international ``honor system,'' with which an 
        unscrupulous government like Sweden that aggressively ``takes 
        care of its own'' at all costs cannot and will not comply.

    In short, the Swedish MLAT is a proposed law enforcement treaty 
with:

  <bullet> a foreign government whose citizens commit crimes with 
        impunity against American citizens because every element of the 
        Swedish legal and social welfare systems works for Swedish 
        citizens and against their non-Swedish victims (including 
        payment of the legal fees of Swedish abductors both in Sweden 
        and the U.S.),

  <bullet> a foreign government that is actively engaged in systematic 
        and institutionalized human rights abuses against American 
        citizens (e.g., the human rights cited by the U.S. Government 
        in the Elian Gonzalez case but ignored in the annual U.S. human 
        rights reports, as well as those regarding access to both 
        parents in the Convention on the Rights of the Child that 
        Sweden violates as a State Party and the U.S. respects even as 
        a non-Party), and

  <bullet> a foreign government that prevents or blocks any adequate or 
        effective remedies for American citizens who are the victims of 
        crimes committed by Swedish citizens.

    Moreover, the Swedish MLAT is a proposed law enforcement treaty 
that has serious technical flaws in several respects that almost 
certainly will NOT vanish in day-to-day implementation at the working 
level of the Justice Department whatever ``safeguards'' are claimed:

          1) The U.S. obligation under the treaty to provide assistance 
        for everything in the Swedish penal code (``non-dual 
        criminality'') means that the U.S. would be obligated to assist 
        with Swedish criminal laws that would be unconstitutional in 
        the U.S. or that deny constitutionally protected activities. 
        Your staff has an example of American citizens being jailed in 
        Sweden under such laws.

          2) With regard to child abduction, the U.S. obligation to 
        provide assistance for the entire Swedish Penal Code includes a 
        law (your staff has a copy) designed and utilized to protect 
        Swedish child abductors and to intimidate and ultimately 
        prosecute non-Swedish parents attempting to exercise their 
        joint or even sole child custody rights in Sweden even under 
        Swedish law. This ultra-nationalist and racist law was, 
        according to senior Swedish prosecutors, originally intended to 
        deal with ``fathers from the South'' in their words (i.e., 
        Africans, Arabs, or anyone with a dark skin). But it has been 
        used very effectively and wrongly against Americans, including 
        your constituent Greg O'Donoghue of Burbank (six months in a UK 
        prison awaiting extradition to Sweden), Mark Larson of Utah 
        (issuance of arrest warrant prevented any access to his 
        abducted daughter for a lengthy period), and me (2 days in a 
        Swedish jail, with eventual compensation by the Swedish 
        Government for false arrest).

          3) Sweden cannot meet the standard in the Senate proviso that 
        has previously conditioned advice and consent to MLATs, namely 
        that no senior foreign government official who will have access 
        to information under the MLAT is engaged in a felony. The 
        central authority for the MLAT would be in the same part of the 
        Swedish Foreign Ministry as the existing central authority for 
        the Hague child abduction convention (which is actively engaged 
        in perpetuating ongoing Federal and state felonies against 
        American citizens, and does far more to support Swedish child 
        abductors than the U.S. central authority does to assist their 
        victims).

    Some final points against the Swedish MLAT:

    <bullet> It is a proposed law enforcement treaty with an 
historically unreliable treaty ``partner'' that has violated its 
existing law enforcement (extradition treaty) and related (Hague child 
abduction convention--a convention with civil remedies for criminal 
conduct) treaty obligations to the United States and others (Convention 
on the Rights of the Child).

    <bullet> It is a proposed treaty that the United States does not 
need because Sweden considers its treaty obligations to be optional and 
only complies when convenient or in its interest to do so (meaning that 
Sweden will provide assistance on its own terms with or without a 
treaty, as it does now).

    <bullet> It is a proposed treaty with a country that has no 
principle of comity in its legal system, which has frequently shown its 
lack of respect for U.S. laws and court orders, declaring that U.S. 
orders ``have no validity in Sweden,'' and which has abused the U.S. 
legal process by financing costly appellate litigation against American 
citizens with no intention of respecting or enforcing the results in 
Sweden if adverse to the Swedish citizen concerned.

    Senate advice and consent to the Swedish MLAT would send the wrong 
signal to Sweden, a country that has shown longstanding contempt for 
U.S. law and policy generally, to the extreme detriment of many 
American citizens (i.e., abducted American children and their American 
parents who lose them forever. An MLAT with Sweden would put the entire 
U.S. law enforcement system at the disposal of Swedish law enforcement, 
the shortcomings of which have been amply discussed above. It would be 
wrong from a law enforcement standpoint, a human rights standpoint, and 
an American standpoint. It is not possible to compartmentalize the 
Swedish Government's direct support for felonies by its citizens 
against Americans on the one hand from the question of its worthiness 
as a U.S. law enforcement treaty partner on the other hand.
            Sincerely,
                                         Thomas A. Johnson.

                                   - 

</pre></body></html>
